<html>
<title> - HUMANITARIAN ASSISTANCE FOLLOWING MILITARY OPERATIONS: OVERCOMING BARRIERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   HUMANITARIAN ASSISTANCE FOLLOWING MILITARY OPERATIONS: OVERCOMING 
                                BARRIERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2003

                               __________

                           Serial No. 108-56

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

89-546              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 2003.....................................     1
Statement of:
    Greene, Richard L., Principal Deputy Assistant Secretary for 
      Population, Refugees, and Migration, U.S. Department of 
      State; and William J. Garvelink, Senior Deputy Assistant 
      Administrator for Democracy, Conflict, and Humanitarian 
      Assistance, U.S. Agency for International Development......    33
    Welling, Curtis R., president and CEO, AmeriCares; George C. 
      Biddle, senior vice president, International Rescue 
      Committee; Rudy Von Bernuth, vice president and managing 
      director, Children in Emergencies and Crisis, Save the 
      Children; and Kevin M. Henry, director, policy and 
      advocacy, Care.............................................    79
Letters, statements, etc., submitted for the record by:
    Biddle, George C., senior vice president, International 
      Rescue Committee, prepared statement of....................    92
    Garner, Lieutenant General Jay, retired, Director of Office 
      of Reconstruction and Humanitarian Assistance, Department 
      of Defense, prepared statement of..........................    23
    Garvelink, William J., Senior Deputy Assistant Administrator 
      for Democracy, Conflict, and Humanitarian Assistance, U.S. 
      Agency for International Development, prepared statement of    44
    Greene, Richard L., Principal Deputy Assistant Secretary for 
      Population, Refugees, and Migration, U.S. Department of 
      State, prepared statement of...............................    36
    Henry, Kevin M., director, policy and advocacy, Care, 
      prepared statement of......................................   115
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Article dated May 10, 2003...............................     6
        Prepared statement of....................................    15
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Discussion Paper, Protecting Iraqis from a Security 
          Vacuum.................................................   125
        Information concerning critical tasks....................    55
        Letter dated May 9, 2003 and prepared statement of Bill 
          Frelick................................................    69
        Prepared statement of....................................     3
    Von Bernuth, Rudy, vice president and managing director, 
      Children in Emergencies and Crisis, Save the Children, 
      prepared statement of......................................   103
    Welling, Curtis R., president and CEO, AmeriCares, prepared 
      statement of...............................................    83

 
   HUMANITARIAN ASSISTANCE FOLLOWING MILITARY OPERATIONS: OVERCOMING 
                                BARRIERS

                              ----------                              


                         TUESDAY, MAY 13, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Janklow, Kucinich, Maloney, 
Ruppersberger and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Phd, senior policy advisor; 
Robert A. Briggs, clerk; David Rapallo, minority counsel; and 
Jean Gosa, minority assistant clerk.
    Mr. Shays. The Subcommittee on National Security, Emerging 
Threats, and International Relations hearing entitled, 
``Humanitarian Assistance Following Military Operations: 
Overcoming Barriers,'' is called to order.
    In defense of international peace and human dignity, 
coalition Armed Forces have liberated Iraq from the death grip 
of a brutal corrupt regime. They did so brilliantly and 
bravely, executing a battle plan that demanded unparalleled 
military precision and unprecedented efforts to minimize 
civilian casualties.
    That same concern for the long oppressed people of Iraq now 
motivates our efforts to stabilize that nation, bring relief to 
millions in need, and help them create a government they can 
trust and support. We cannot fail to complete this journey. The 
forces of liberation, military and civilian, are working to 
fill the vacuum created by the collapse of Saddam's insidious 
tyrannical control apparatus.
    The same urgency that propelled armored columns into 
Baghdad must now drive efforts to establish civil order, 
restore basic services, and reopen safe passage for people, 
food, medicine, and necessities.
    During my very brief stay in Iraq last month, as the guest 
of Connecticut-based humanitarian organization Save the 
Children, I saw heart-wrenching poverty and unendurable living 
conditions. Not the war, but decades of Saddam's sadism and 
brutal selfishness robbed the Iraqi nation of the means and 
capability to thrive. As liberators, the culminating, perhaps 
more difficult, duty of regime change is to care for the people 
of Iraq until they are able to harvest the fruits of human 
dignity and freedom for themselves.
    The task is absolutely enormous. Before the war, 60 percent 
of the population relied solely on the United Nations' Oil for 
Food Program for basic needs. After the war, food warehouses 
were looted. Lack of clean water and reliable power are 
crippling an already inadequate health care system. In an oil-
rich country, shortages of cooking fuels and other refined 
products inflame hardship and resentments.
    We cannot and should not expect to meet the challenge 
alone. International aid programs and nongovernment 
organizations referred to as NGO's have the most experience 
assessing humanitarian needs and getting essential supplies 
through logistic and political barriers. NGO staff are willing 
to take risks, but they cannot yet operate fully or freely in 
an unsettled security environment that threatens the physical 
safety and political neutrality of humanitarian workers.
    The transition from combat to police operations has not 
been as rapid or as smooth as planned. Hard lessons learned in 
Bosnia, Kosovo, Somalia, Haiti, and Afghanistan on the need to 
quell emergent lawlessness seems to have fallen out of the 
battle plan during the dash to Baghdad. The military mechanics 
of basic security and free-flowing humanitarian assistance need 
to be brought forward quickly before vicious thugs and radical 
mullahs can occupy the moral high ground so nobly gained in 
battle.
    The President charged the Pentagon's Office of 
Reconstruction and Humanitarian Assistance with bringing civil 
order and much needed aid to Iraq. Ambassador Paul Bremer and 
Retired Army General Jay Garner are leading U.S. efforts to 
meet that challenge. We will hear a taped message from General 
Garner this afternoon. We will also hear from Federal agencies 
and NGO's directly involved in rebuilding Iraq. Their testimony 
will help us understand the difficulties of delivering 
assistance in postwar Iraq and the scope of humanitarian 
mission facing the world.
    With military might and precious lives, we have paved the 
way for peace and Democracy in Iraq. For that struggling 
nation, that troubled region and a changing world, the road 
ahead is perilous and the stakes are enormous. We cannot fail 
to complete the journey.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.001
    
    [GRAPHIC] [TIFF OMITTED] T9546.002
    
    Mr. Shays. At this time, the Chair would recognize the 
distinguished ranking member, Mr. Kucinich, for an opening 
statement.
    Mr. Kucinich. I want to thank the Chair for his dedicated 
efforts to try to obtain General Garner's testimony today.
    And I want to state, for the record, that I am concerned 
about the Defense Department's refusal to send any department 
officials to this hearing so we could have our questions 
answered.
    General Garner's testimony will be on videotape, and we are 
not going to have any opportunity to question him. I might add 
that, for the Department of Defense, that this is a U.S. 
congressional oversight subcommittee with responsibility for 
the Department of Defense. In my view, a videotape testimony is 
not acceptable. This is not Emerald City, folks, and General 
Garner is not the Wizard of Oz. I mean, we have an obligation 
to get answers to our questions. And it's also a great concern, 
because the International Relations Committee is holding a 
hearing on Thursday in which the general will testify and is 
sending the Department's Under Secretary for Policy as a 
personal representative.
    I also want to say that I am disappointed in the 
administration's approach to the security situation in Iraq. 
Based on all evidence, it appears the administration is more 
concerned about the security of oil reserves than of the Iraqi 
people or in its supposed weapons of mass destruction. Let me 
tell you why.
    First, the administration did not begin preparations for 
Iraqi reconstruction until early 2003. Although AID, AID's 
secret and exclusive contracting process has been criticized 
elsewhere, the bottom line is that the White House did not tell 
them to start preparing for the war's aftermath until 2003.
    In contrast, the administration began preparing to secure 
Iraqi oil fields months earlier. The Army asked Halliburton 
back in November to develop a contingency plan for 
extinguishing oil well fires, repairing damage, and continuing 
operations. This begs the question, why wasn't the same level 
of preparation given to the humanitarian relief?
    With respect to weapons of mass destruction, during the 
first days of occupation in Baghdad, the military rushed to 
secure a single government agency, the oil ministry. They did 
not secure hospitals, electrical grids, or water facilities. As 
the military rushed by these facilities--and rushed by, I might 
add, the Iraqi National Museum--it also bypassed Iraq's nuclear 
headquarters and the nuclear research facility. These are known 
nuclear sites that the IAEA has inspected dozens of times, and 
that contained sealed containers of nuclear material. U.S. 
forces left them unguarded for weeks while hundreds of people 
looted them.
    In a series of investigative articles on these lootings, 
the Washington Post reports that, inexplicably, these 
facilities are still not secure. As a result, the military says 
it is now impossible to determine whether nuclear material was 
stolen. I would like to submit these articles, Mr. Chairman, 
for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.003
    
    [GRAPHIC] [TIFF OMITTED] T9546.004
    
    [GRAPHIC] [TIFF OMITTED] T9546.005
    
    [GRAPHIC] [TIFF OMITTED] T9546.006
    
    [GRAPHIC] [TIFF OMITTED] T9546.007
    
    [GRAPHIC] [TIFF OMITTED] T9546.008
    
    [GRAPHIC] [TIFF OMITTED] T9546.009
    
    Mr. Kucinich. If this is the administration's record for 
securing materials that are highly questionable, this is their 
record for securing materials that can be connected to the 
concerns that many have expressed, if this is their record, we 
need to reflect on the whole reason why this administration 
went to war against Iraq. And one can only imagine the state of 
security for humanitarian relief efforts.
    Mr. Chairman, before the war, the Army's Chief of Staff 
General Shinseki testified before the Senate Armed Services 
Committee. When asked how many troops were necessary to secure 
Iraq after the war, he said several hundred thousand; but 
superiors in the administration refused to listen. Two days 
after the general testified, the administration sent Deputy 
Defense Secretary Wolfowitz to publicly rebuke him, saying his 
estimate is way off the mark. The administration has now 
reduced the number of troops in Iraq to fewer than 150,000. As 
a result, this weekend General David McKiernan, the commander 
of ground forces in Iraq, made a frank and disturbing comment. 
He said, ``Ask yourself if you could secure all of California 
with 170,000 troops. The answer is no.'' This individual is the 
commander of the U.S. ground forces.
    But, again, in spite of this dire situation, the 
administration plans to reduce the number of troops by tens of 
thousands more over the coming months. What is most troubling 
about these actions is that they are taking place while the 
administration is excluding the international community from 
assisting with security and other critical functions. Dr. Blix 
and Dr. ElBaradei, for example have both offered to dispatch 
trained international weapons inspectors to assess the looted 
nuclear facilities and help search for those elusive weapons of 
mass destruction, but their offers have been rebuffed.
    On January 14, only 6 weeks after U.N. inspectors began 
their search for such weapons, the President denounced the U.N. 
inspection process for taking too long. Yet today, almost 2 
months after the start of the war, and without the obstacles of 
the Hussein regime, the administration still has not found such 
weapons.
    It is a misconception to assume that the U.S. forces are 
the most effective to administer a post-Saddam Iraq. Certainly, 
Iraqis are happy to be rid of Hussein, but many Iraqis blame 
their current humanitarian crisis on a decade of U.S. support 
for economic sanctions. Certainly, they are pleased to be free 
of a tyrant, but they are extremely skeptical of a 
reconstruction effort by a single occupying Nation, and 
especially by that Nation's military force.
    Mr. Chairman, we know the factions inside and outside Iraq 
are trying to exploit this anti-American sentiment to their 
advantage. The Washington Post reported that in the city of 
Najaf, for example, Shiite leaders are denouncing the U.S. 
military occupation. As a result, U.S. troops are not 
patrolling or providing security there. At least in this 
portion of Iraq, it appears, U.S. troops are not being used to 
support security efforts. And unilateral actions by the 
administration can only serve to further inflame these 
factions. Without the inherent legitimacy and expertise of the 
international community, the administration may end up creating 
a larger problem than it hoped to solve.
    Mr. Chairman, last week the President landed aboard the USS 
Lincoln and proclaimed victory in Iraq. He spoke in front of a 
large banner that read: Mission Accomplished. Clearly, this 
mission is nowhere near finished, and I'm concerned that the 
administration's cavalier attitude will end up costing this 
country more than we know.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T9546.010

[GRAPHIC] [TIFF OMITTED] T9546.011

[GRAPHIC] [TIFF OMITTED] T9546.012

[GRAPHIC] [TIFF OMITTED] T9546.013

[GRAPHIC] [TIFF OMITTED] T9546.014

[GRAPHIC] [TIFF OMITTED] T9546.015

    Mr. Shays. Mr. Janklow, Governor.
    Mr. Janklow. Mr. Chairman, thank you very much. And I will 
be extremely brief with my comments.
    I really appreciate, Mr. Chairman, you setting up this 
meeting for today. At this point in time, there can't be 
anything more appropriate than to look at the question of 
humanitarian assistance following the military operation 
overcoming barriers.
    I'm not as smart as a lot of other people that have all the 
answers to these types of things. My understanding is, we just 
came through a war. In this war, all kinds of different things 
happened. Very little goes according to actual plan. A perfect 
example of the kinds of misinformation you can get in a war is 
you can read stories in very credible newspapers that talk 
about a hundred thousand objects plus disappearing from a 
museum, and then you can find out that in reality it may be a 
couple hundred objects that have disappeared from a museum. 
These kinds of misinformation happen during war.
    As a matter of fact, I am pleased, Mr. Chairman, that the 
testimony before this committee is under oath with people 
appearing. And I realize, I wish the administration also would 
send folks from the Defense Department. But to say that they 
will be here Thursday as opposed to today, at this point in 
time, doesn't violate any sensitivities that I have. I think 
it's more important that things continue on an orderly basis, 
recognizing that Congress bears the ultimate responsibility on 
behalf of the people for the oversight.
    I also think, Mr. Chairman, that we now get an opportunity 
to look at what worked, what didn't. But as you said in your 
opening statement, Mr. Chairman, I think it's incredibly 
important that we understand that there are basic levels of 
service that have to become functioning. I am old enough to 
remember some of the things following the Second World War and 
how long it took, for example, in some of those countries to 
get the electrical system running, to get the water systems 
working, to get the basic public transportation operating. I 
realize that Iraq is about the size of California, but I also 
understand that's where it ends. That the vast, vast majority 
of people in Iraq are clustered into metropolitan centers as 
opposed to cities that run for hundreds of miles, as you have 
in the State of California. The difference between the two is 
really what takes place outside the cities. But for all 
practical purposes, there's still basic telephone service, 
there is still water that has been restored. There is 
electrical services that are up and running. And clearly these 
weren't world class operations before the war started. So I 
think our country has been able to accomplish a lot. We all 
wish it was more.
    And, Mr. Chairman, thank you for holding this hearing so we 
can find out the extent to which humanitarian assistance that 
follows military operations has barriers; where are they. Let's 
hope we can all learn from this and go forward.
    Thank you.
    Mr. Shays. I thank the gentleman. I thank both gentlemen.
    I ask unanimous consent that all members of this 
subcommittee be permitted to place an opening statement in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And, without objection, so ordered.
    We have two panels. Part of that panel will be Lieutenant 
General Jay Garner, retired, Director of Office of 
Reconstruction and Humanitarian Assistance, Department of 
Defense, in a taped testimony. I would just acknowledge to my 
ranking member and colleague, Mr. Janklow, that we did, in 
fact, ask Jay Garner to testify using modern technology. They 
said they would provide a tape, and I didn't pursue it. And the 
part of me that didn't pursue it was not wanting the system to 
break down as we tried to make it work. But also, the 
recognition that he will be available to this committee in the 
future to testify and, in fact, will be testifying to others. 
So I just basically feel this is an introductory hearing to an 
effort that this committee, with ranking member support, will 
be pursuing with some vigor.
    So we will be hearing first from Jay Garner. We will not be 
able to question him, we will not be able to swear him in. We 
will take his testimony as it comes in tape, and I guess we are 
going to lower the lights a bit and listen to that. Then I will 
swear in both our witnesses in our first panel, and then go to 
the second panel.
    So if we can start the tape. Any popcorn?
    [Videotape played.]
    Mr. Shays. We thank General Garner's participation. When I 
was in Iraq, he was very generous with his time, and I think he 
was very generous in his very long statement, but that doesn't 
get around the fact that we aren't able to question him. And 
Congress will be able to, I guess, later this week. Is that 
right?
    [The prepared statement of General Garner follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.016
    
    [GRAPHIC] [TIFF OMITTED] T9546.017
    
    [GRAPHIC] [TIFF OMITTED] T9546.018
    
    [GRAPHIC] [TIFF OMITTED] T9546.019
    
    [GRAPHIC] [TIFF OMITTED] T9546.020
    
    [GRAPHIC] [TIFF OMITTED] T9546.021
    
    [GRAPHIC] [TIFF OMITTED] T9546.022
    
    [GRAPHIC] [TIFF OMITTED] T9546.023
    
    [GRAPHIC] [TIFF OMITTED] T9546.024
    
    [GRAPHIC] [TIFF OMITTED] T9546.025
    
    Mr. Shays. I'd like to thank Mr. Ruppersberger for being 
here, and Mr. Tierney.
    We have not yet sworn in our first panel, and so if you had 
any opening statements or any comments, I would be happy to 
recognize you.
    Mr. Tierney. Not at this time.
    Mr. Shays. Let me announce that Mr. Richard Greene, 
Principle Deputy Assistant, Bureau of Population, Refugees and 
Migration, Department of State and Mr. William J. Garvelink, 
Senior Deputy Assistant Administrator, Bureau of Democracy, 
Conflict and Humanitarian Assistance, U.S. Agency for 
International Development under the auspices of the State 
Department, as well, are here.
    And at this time, gentlemen, if you'd rise, we'll swear you 
in. Then we'll take your testimony.
    [Witnesses sworn.]
    Mr. Shays. Note for the record both our witnesses have 
responded in the affirmative, and Mr. Greene, we'll start with 
you. I think you realize your statement will not be as long as 
the previous one on video, but we're very eager to hear your 
testimony and thank you both for participating.
    Mr. Greene.

  STATEMENTS OF RICHARD L. GREENE, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY FOR POPULATION, REFUGEES, AND MIGRATION, U.S. 
 DEPARTMENT OF STATE; AND WILLIAM J. GARVELINK, SENIOR DEPUTY 
     ASSISTANT ADMINISTRATOR FOR DEMOCRACY, CONFLICT, AND 
    HUMANITARIAN ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Greene. Thank you, Mr. Chairman, and I'll summarize my 
record statement.
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to discuss humanitarian assistance following 
military operations. Providing effective humanitarian 
assistance is critical in establishing stability in 
postconflict situations----
    Mr. Shays. Move the mic a little closer. Even though we're 
hearing you, just a little closer would help.
    Mr. Greene [continuing]. And is in keeping with America's 
core values. In Iraq, we're dealing with major humanitarian 
challenges every single day. In our context, as emphasized by 
General Garner, is that there were significant infrastructure 
problems preconflict, and that so far General Garner has only 
been there for 3 weeks, it has only been 12 days since 
President Bush declared the end to major combat operations in 
Iraq, and that we're making dogged progress every single day.
    Our approach to Iraq incorporates many lessons from 
previous postconflict assistance efforts, and it includes the 
following elements. First, civil/military cooperation and 
coordination is absolutely essential, from the first stages of 
planning and assessment to the eventual--through delivery of 
assistance to the eventual handover to nationally led 
institutions. We do everything we can to ensure that military 
plans take into account vulnerable noncombatants and the 
humanitarian infrastructure, so that there is minimal damage to 
both.
    For Iraq, the multiagency humanitarian planning team and 
numerous exchanges between senior State and DOD officials 
underscored the importance of incorporating effective 
humanitarian response into our overall Iraq campaign efforts. 
The civil/military exchange continues on a daily basis on a 
whole range of humanitarian assistance issues in both Iraq and 
Afghanistan.
    Second, our approach relies on the expertise of the main 
providers of humanitarian assistance worldwide, which are 
humanitarian agencies and other international and 
nongovernmental organizations. They have the technical 
expertise and experience to assess the needs of refugees and 
internally displaced persons across the sectors of protection, 
food, water, sanitation, health, shelter and education.
    Third, the prompt and effective delivery of humanitarian 
assistance depends upon a permissive security environment where 
adequate security and public safety measures are in place. 
Clearly, the most pressing concern of humanitarian agencies in 
parts of Iraq and Afghanistan is the absence of a permissive 
security environment, again, a point emphasized by General 
Garner.
    Fourth, our approach reflects a clear linkage between the 
establishment of effective coordination mechanisms among the 
humanitarian agencies operating on the ground and how well 
assistance programs actually work. In Afghanistan, for example, 
the Afghans and the international community developed a new 
mechanism for coordinating humanitarian and reconstruction 
assistance efforts. This initiative called the ``Program 
Secretariat'' structure twinned U.N. agencies with counterpart 
Afghan government ministries, and perhaps just as importantly, 
provided an overall framework for NGO's to help plug into.
    Our emphasis on effective coordination mechanisms is also 
why we strongly supported the recent--strongly supported recent 
reentry to Baghdad of the U.N.'s humanitarian coordinator for 
Iraq and other U.N. international staff to join the almost 
4,000 U.N. national staff who remained in Iraq during the 
recent conflict.
    Fifth, our approach aims to leverage the capacity of these 
skilled, experienced, and internationally mandated humanitarian 
assistance organizations by establishing formal civilian/
military coordination operation centers. We set up one in 
Kuwait, set up one in Jordan and, as General Garner said, about 
to set up one in Baghdad. These centers provide direct access 
between humanitarian planners and military officials on the 
myriad of logistical and security issues involved in 
postconflict relief operations.
    Sixth, our approach emphasizes the importance of early and 
significant funding. We built our funding requirements and 
decisions around the needs of the populations that these 
organizations will assist. In Afghanistan, the 2001 Emergency 
Supplemental Appropriation Act provided the U.S. Government the 
ability to jump-start the efforts of the key international 
humanitarian organizations, thus averting a humanitarian 
disaster.
    In Iraq, the Emergency Wartime Supplemental Appropriation 
Act of 2003 provides $2.4 billion for relief and initial 
reconstruction that will serve a similar purpose.
    Seventh, our approach relies on the assessments and work 
plans done by the international organizations for the 
international community. We also work closely with our NGO 
partners to get their assessment of the needs in an affected 
country as they play an important role in filling critical gaps 
in the programming done by international organizations. Our 
funding decisions are based on needs and activities outlined in 
these work plans, which are closely coordinated among the 
agencies.
    Eighth, also on the critical funding issue, our approach 
emphasizes the importance of international burden sharing. 
Securing fair-share contributions from other international 
donors is a major USG goal.
    So in conclusion, Mr. Chairman, each postconflict 
humanitarian relief operation has it own set of unique 
circumstances, but we don't have to reinvent the wheel each 
time. Providing humanitarian assistance in postconflict 
environments is an extraordinarily challenging task, and you 
can just hark back to some of the examples General Garner was 
providing.
    We've worked hard to coordinate planning and implementation 
within the U.S. Government and to forge good working 
relationships with our key U.N. and NGO partners in providing 
humanitarian assistance in complex humanitarian emergencies. 
We'll continue to do everything possible to facilitate the 
great work they do on behalf of the international community.
    Thank you, and I'd be glad to answer your questions.
    Mr. Shays. Thank you, Mr. Greene.
    [The prepared statement of Mr. Greene follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.026
    
    [GRAPHIC] [TIFF OMITTED] T9546.027
    
    [GRAPHIC] [TIFF OMITTED] T9546.028
    
    [GRAPHIC] [TIFF OMITTED] T9546.029
    
    [GRAPHIC] [TIFF OMITTED] T9546.030
    
    [GRAPHIC] [TIFF OMITTED] T9546.031
    
    Mr. Shays. Mr. Garvelink.
    Mr. Garvelink. Thank you, Mr. Chairman, and members of the 
committee.
    I appreciate the opportunity to talk to you about 
humanitarian assistance efforts following military operations. 
Although, the specific circumstances our relief teams face 
today in Iraq are unique, we have learned a great deal from 
previous experiences in northern Iraq more than a decade ago, 
as well as in Somalia, Bosnia, Haiti, Rwanda, Kosovo and, most 
recently, Afghanistan.
    There is a division of responsibility between the State 
Department and my agency, the U.S. Agency for International 
Development [USAID]. In very general terms, State works most 
closely with U.N. agencies, with a special emphasis on refugees 
and the International Committee of the Red Cross. USAID works 
mostly with its Private Voluntary and Non-Governmental 
Organization [PVO-NGO] partners providing general humanitarian 
assistance and responding to the needs of internally displaced 
persons.
    The exception is that USAID is the principal funder of the 
World Food Program, but regardless of the division of 
responsibilities, we share general principles when responding 
to humanitarian emergencies.
    First, early planning is essential. Sometimes we have only 
hours or days to plan if it's a hurricane, or we have weeks in 
the case of Afghanistan, and sometimes we have months, which we 
did in the case of Iraq. The earlier planning begins the 
better, and this--a good example of this was Iraq, where for 
several months teams met in Tampa with the Department of 
Defense Central Command and in Washington. The team included 
all of the U.S. Government agencies that were involved, plus 
NGO's and U.N. agencies.
    Second, we cannot plan in isolation. We must engage 
immediately all the international humanitarian agencies that 
will be involved. We need to rely on the full range of these 
organizations. Each has its own strengths, and all are 
necessary to accomplish the job. United Nations agencies work 
effectively with host governments and national programs, the 
International Committee of the Red Cross is most effective in 
conflict situations, and the NGO's are most effective in 
smaller community situations and community development 
activities.
    Third, the provision of assistance must be driven by needs 
assessments. To use our expertise and our resources 
effectively, we must know precisely what is needed and where it 
is needed. We can't justify sending assistance to these 
countries blindly.
    Finally, United States and one or two other donors cannot 
respond to humanitarian emergencies alone. The international 
community must share the burden.
    When humanitarian assistance follows military operations, 
these principles become even more important. The military plays 
several critical roles in these kinds of relief operations. The 
military becomes an enabler for the humanitarian community. The 
military often provides the initial assistance in unstable 
environments. It does some of the initial assessments, and the 
military facilitates the entry or return of humanitarian 
organizations.
    Consequently, early planning with the military is critical, 
as it allows the military to understand the humanitarian 
architecture that is on the ground. In Afghanistan, for 
example, U.N. agencies and NGO's had a long presence. In the 
center and south of Iraq, there were no NGO's, and the U.N. 
presence was limited to only monitoring activities. And that is 
important to know, as we plan to work together to provide 
humanitarian assistance.
    Coordination and information sharing are essential to 
identifying the most critical needs in the emergency and the 
bottlenecks to providing that assistance.
    In one of the first operations of this sort in Somalia, we 
established a Humanitarian Operations Center to coordinate with 
military forces on the ground, U.S. Government agencies, the 
United Nations, and NGO's. That model has been refined several 
times until it has been used effectively in the Humanitarian 
Operations Center in Kuwait City today.
    Finally, assessments are critical, and for the first time 
in Iraq, the military and civilian agencies are using the same 
assessment tools. We have learned a lot about how to coordinate 
with each other in the past decade, and though we have a ways 
to go, civilian agencies and the military have learned to meet 
the humanitarian needs of civilians in post-conflict settings.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Garvelink follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.032
    
    [GRAPHIC] [TIFF OMITTED] T9546.033
    
    [GRAPHIC] [TIFF OMITTED] T9546.034
    
    [GRAPHIC] [TIFF OMITTED] T9546.035
    
    [GRAPHIC] [TIFF OMITTED] T9546.036
    
    Mr. Shays. I thank the gentleman.
    We will go to you first, Mr. Janklow, Governor. And I think 
what we'll do is, we'll do 5 minutes the first pass and maybe 
10 the second.
    Mr. Janklow. Thank you very much, Mr. Chairman.
    If I could ask both of you gentlemen, when I look at your 
testimony, you have well-thought-out, laid-out plans in 
advance, criteria, protocols, whatever you'd like to call that 
you follow.
    Let me ask you first, Mr. Greene, what didn't work 
according to your criteria? And I realize the Xs and Os always 
score touchdowns on the wall.
    Mr. Greene. Sir, I think that, again, given the--I'm not--
given the context--let me put your question into a context, in 
that I think that a lot is working----
    Mr. Janklow. No, no. What didn't work specifically? I think 
a lot is working too.
    Mr. Greene. And I think that a lot of our planning focused 
on dealing with major population displacements. We and many 
others went--the other international organizations projected 
that somewhere between 2.3 and 3 million Iraqis would be 
displaced during conflict, and that we'd have to put systems in 
place, and that a lot of our focus would be getting assistance 
to displaced populations, and we didn't--thankfully we didn't 
have that problem.
    I think what also didn't work was that there was a pretty 
grand underestimation by us as to the degree of looting that 
would take place, and now we're faced with dealing with a lot 
of problems created by looting that I don't think the extent 
was anticipated by anybody in the planning process.
    Mr. Shays. Mr. Garvelink, what didn't work?
    Mr. Garvelink. Well, again, I would characterize it a 
little bit more like Rich Greene. I think we didn't anticipate 
some of the things that happened. Again, as Rich said, the 
population movements didn't happen. The intensity of the 
humanitarian crisis has not occurred.
    I think what we did not anticipate to the extent that it is 
out there now, is some of the water and sanitation problems and 
the importance of electricity to maintaining reliable water 
supplies for hospitals and health clinics. I don't think we 
focused on those sorts of things. We were focused on population 
movements and refugees----
    Mr. Janklow. Let me ask you, if I could, and I'll start 
with you, Mr. Greene--or you, Mr. Garvelink, either one of you, 
are the international organizations in place? I realize about 
4,000 U.N. workers stayed there. We keep hearing conflicting 
reports. Is the U.N. there at work, or isn't it?
    Mr. Greene. The U.N. is coming back into Iraq.
    Mr. Janklow. Does that mean they are not at work now, they 
are coming back----
    Mr. Greene. They are at work now, but not at full capacity. 
At the end of this week, there will be about, something like, 
200 international staff, and they're starting to come back in. 
This is where we tie back to security considerations, where 
security considerations are impacting their ability to get out 
in the country and provide assistance efforts.
    Mr. Janklow. Let me, if I can--and I'm trying to be very 
poignant. We'd like to know what are the barriers. I mean, as 
both of you say in your testimony, whether it was Bosnia, 
Kosovo, Afghanistan, every operation, you learn--every crisis, 
every incident, you learn something. What is it that we're 
going to learn from this one, at this point in time? And I 
realize it's not over. We're looking at barriers. What barriers 
are there to overcome, you didn't plan for other than the 
security barrier?
    Mr. Greene. In my view, that is the single-most important 
barrier----
    Mr. Janklow. What is No. 2?
    Mr. Greene. Quickly setting up a civil administration 
structure in Iraq, getting ministries up and running.
    Mr. Janklow. Mr. Garvelink.
    Mr. Garvelink. We seem to be saying a lot of the same 
things, so I'm agreeing with Rich again. I think the security 
obviously is something that we thought would not be the kind of 
problem it has turned out to be.
    Mr. Janklow. No. 2?
    Mr. Garvelink. No. 2, I think is the reestablishment of 
civil administration and rule of law.
    Mr. Janklow. Well, if we bombed several of these 
ministries, which we did--I don't know whether we bombed them 
all, but I know we bombed several of them. If we deliberately 
took out the communication system, what is it that we didn't 
anticipate with respect to setting up civil government? I mean, 
did we honestly think they'd all just show up for work when the 
shooting stopped or quieted down?
    Mr. Greene. I think there were----
    Mr. Janklow. Let me preface it with one more thing. 
According to testimony we heard from--I believe it was the 
general--the police were corrupt, they were ill-trained, they 
weren't very good. The other technocrats were pretty good, so 
what is it that we--and I'm not trying to be critical. OK. What 
I'm trying to do is figure out how can we all learn, what is it 
that we need to learn. So from that perspective, what is it 
about the Civil Service that we didn't anticipate?
    Mr. Greene. I think, with all due respect, sir, we're 
learning lessons while we're on the ground there, and I think 
we found out the difficulty of accurately assessing the quality 
of the civil service, the linkage to the Ba'ath Party by being 
outside of Iraq, and now that we're in and having conversations 
with people on a daily basis, we're in a much better situation 
to assess what's going on and what's needed to happen.
    Mr. Janklow. What about you, Mr. Garvelink?
    Mr. Garvelink. Well, one of the things that we've seen in 
other humanitarian situations of this nature, in post-conflict 
situations, is that the pace with which a conflict ends and the 
pace with which rule of law is restored is usually different. 
And that seems to be a problem that's very hard for the 
international community to deal with. It's easy, and whether 
it's Bosnia or Kosovo, to win a conflict. It's a little more 
difficult to train a police force and put it in place.
    Mr. Janklow. Both of you heard the testimony of the 
general. Which of his 11-point criteria do you think we're not 
going to be able to meet the deadline on, with respect to June 
15 or thereabouts? Because he made it sound like--and I realize 
he may not get all 11, but this was a darn important list from 
the perspective of making sure that things went smoothly, and 
without it, he looked for the opposite to take place in Iraq. 
Which of his list do you think we're going to have trouble 
meeting and why?
    Mr. Greene. I think we're going to be able to accomplish or 
make significant progress on every one of these things. I know 
that a lot of activity is going on now, and I think that all 
these are doable.
    I think a big variable here is getting police trained. It's 
one thing to get police back to work. It's another thing to 
have police back and trained that people trust and respect and 
that could implement----
    Mr. Janklow. That can't happen by June 5----
    Mr. Greene. Getting police back to work, and there are 
significant numbers of police back to work, can happen.
    Mr. Janklow. What about you, Mr. Garvelink?
    Mr. Garvelink. Well, I'm just looking over the list, and 
some of the activities that he has listed here which my agency 
is involved in, I think there's a real chance to, if not 
accomplish them by June 15, to come very close.
    Mr. Janklow. No, sir. I don't mean your agency. I mean all 
of them.
    Mr. Garvelink. I know. I can't speak to a number of these, 
because I have not been involved with them.
    If you talk about the public distribution system, I think 
they will be up and running. We've made a lot of progress 
working with the world food----
    Mr. Janklow. A fuel crisis?
    Mr. Garvelink. Pardon?
    Mr. Janklow. Are we going to be able to avoid a fuel 
crisis?
    Mr. Garvelink. Again, that's not one I'm very familiar 
with.
    Mr. Janklow. Are you, Mr. Greene?
    Mr. Greene. I think that already we've brought in emergency 
deliveries of LPG gas, which runs a lot of the cooking stoves 
throughout Iraq, and so we're figuring out how to, again, 
respond to the emergency. Will it be a normal distribution 
pattern, no, but will we be able to respond in an emergency, I 
think the answer is yes.
    Mr. Janklow. Were the town councils democratically elected 
in the past?
    Mr. Greene. I don't know, sir.
    Mr. Janklow. Do you, sir?
    Mr. Garvelink. No. I'm not sure.
    Mr. Janklow. How are we going to set up elected democratic 
councils? What agency is this? Who will be doing that?
    Mr. Garvelink. For the Agency for International 
Development, we have our responsibilities for Iraq divided in 
two basic categories. One is the bureau I work for, which does 
humanitarian assistance, and another bureau does 
reconstruction. And the way we've divided up responsibilities, 
democracy and governance, these sorts of activities are in the 
other bureaus.
    Mr. Janklow. And they are not here today?
    Mr. Garvelink. Correct, and so I have a hard time 
addressing the issue.
    Mr. Janklow. We don't know how they're electing them, do 
we?
    Mr. Garvelink. No.
    Mr. Janklow. Sir?
    Mr. Greene. No. I do not know that, sir.
    Mr. Janklow. One other question. With return to the buying 
of the crops, I assume you have got--I mean, they were able to 
continue farming during all of this, and what you're saying is 
to the extent you can buy the crops, you cool off the farmers, 
and you get the food on the shortest travel distance.
    Mr. Garvelink. Well, yeah, it's all of those. What's 
happened over the past few years and under the Oil for Food 
Program and the sanctions in Iraq is that the local production 
was not allowed to be purchased, and in the northern part of 
the country, they have a fairly large wheat crop. I think 
they're expecting in the neighborhood of 600,000 tons this 
year. We're hoping to buy the surplus from the farmers and then 
feed it into the distribution system, but there's been no 
incentive for the past few years for farmers to grow anything, 
because they can't legally sell their crops.
    Mr. Janklow. Thank you. My time is expired.
    Mr. Shays. I thank the gentleman.
    Mr. Ruppersberger, please.
    Mr. Ruppersberger. Well, first, there are a lot of issues 
that we have to deal with here today. In the time that I have, 
I would like to address the planning that we had, really, prior 
to the war. There were some statements made by certain people 
in the military that we should have done a little more 
planning, but what I would really like to get to, at this 
point, I think right now, whenever you're going to stabilize a 
country, you need to have order, and I assume that, based on 
your testimony today, that the order needs to be clearly taken 
care of. And at this point we're having problems.
    From information that I've received, is that one of the 
biggest issues that the coalition forces are having problems 
with is that there are a lot of civilians that have guns, and 
there are a lot more guns than was anticipated. Is that your 
understanding, or do you have any knowledge to that effect?
    Mr. Greene. That is a significant problem, and I think, 
sir, in order to get a more detailed response on what the 
response locally will be to that question, we're going to have 
to talk to representatives of the Defense Department.
    Mr. Ruppersberger. Right, which are not here, but I think 
that the whole issue, as we're trying to study and get 
information today, is how do we best deal with that. You have 
to deal with the basics, and as a result of that, the lack of 
security that exists at this point really is preventing the 
humanitarian efforts to go forward. Correct? Is that your 
understanding?
    Mr. Greene. The----
    Mr. Ruppersberger. Either one.
    Mr. Greene [continuing]. Humanitarian efforts are going 
forward, and the issue is can they go forward more effectively? 
And the answer is clearly, yes, in a more secure environment.
    Mr. Ruppersberger. And what we're trying to establish is 
how we can, in our role, develop a plan to help the military. 
You know, you go in as the military to invade. Then you change 
your roles, and these roles are a lot different, and what we 
really would like to know is how, from your opinion, that we 
can effectuate something to help or to give resources or 
whatever is needed with respect to establishing security, so 
that we can get to the next level.
    Mr. Garvelink. Well, clearly, security is an issue, and as 
you say, it's very difficult to provide humanitarian assistance 
or to expand the humanitarian assistance that is being provided 
without a secure environment, without the protection of silos 
where wheat and other commodities are stored, and, you know, 
clearly, that is a concern for us. I'm sure it's a concern for 
our NGO colleagues, but it's a problem for the military, and 
that's an issue that, you know, I wouldn't presume to answer on 
their behalf. It's a big concern, and it complicates the 
humanitarian picture, but not being----
    Mr. Ruppersberger. From your perspective, you know, what do 
you feel that we need? You've been involved in other countries. 
What do you feel that we need?
    Now, this is a different situation. Each situation was 
different to move forward.
    Mr. Garvelink. Well, I guess from experience in other 
situations like this, we need the rule of law established as 
soon as possible. That's a police force. It's not really the 
military that does that, and so the introduction and 
establishment of a police force would be very important.
    Mr. Ruppersberger. And the reasons we talked--I raised the 
issue about the guns, I mean, how to effectuate that, and 
there's why we do have military police, and they're becoming 
very active, and there are ways to do it.
    Let me get on to something that maybe you might know a 
little bit more about and answer the questions. We talk about 
the costs of what we need to do. We talk about after we have 
order and establish some type of government, that the citizens 
of Iraq need to develop a quality of life, and that's, 
hopefully, what we can do through jobs, through dealing with 
humanitarian concerns. But that costs a lot of money, and the 
unique situation about Iraq is that there is a lot of oil if 
it's taken care of in the right way, if it's marketed the right 
way. And I praise President Bush and the military for taking 
control of the oil fields and making sure that they were 
secure, and I believe they are secure.
    Is there in effect now--and I guess this is through--really 
a State Department question--negotiations with other countries 
and working with people within Iraq to develop that source of 
oil that will help to bring money into the citizens of Iraq?
    Mr. Greene. Sir, clearly the anticipation is that the oil 
industry will get going and that oil revenues will be utilized 
by the Iraqi people to reconstruct and redevelop their country. 
Clearly, there is the anticipation that will play the major 
role.
    Mr. Ruppersberger. I'm not talking of anticipation. Is 
there, right now, ongoing communications? Is there, right now, 
an effort, a strong effort to----
    Mr. Greene. There is a strong effort going on, sir.
    Mr. Ruppersberger. And where are we going, or is it too 
confidential to talk about it in this hearing?
    Mr. Greene. I'd rather not--I don't think it's 
confidential, but I don't believe I should be the one to talk 
about it. All I can tell you is that a major emphasis is on 
that going on there----
    Mr. Ruppersberger. From my point of view in this hearing, I 
want to make sure that unless there's a reason that we 
shouldn't, I want to do what's best for our country first. To 
help the situation, which would be best for our country and the 
world, we need to be, in my opinion, aggressive. If we're being 
aggressive that's fine, but I want to raise the issue of what 
we're doing in order to do two things, to work with other 
countries in establishing what we need to do with respect to 
the oil, which will give the resources to help that country. 
But second, there are a lot of countries that are out there and 
should be allies of ours, that are we or are we not working 
with them, including France and Germany and those countries 
that gave us a hard time prior to the war?
    Mr. Greene. We're doing everything possible to get the oil 
flowing in Iraq again, A, and, B, we have mounted a major 
effort with countries around the world to solicit major 
contributions to the Iraq relief and reconstruction effort. The 
feedback from every country is that people are willing to come 
up with big bucks to contribute toward this effort.
    Mr. Ruppersberger. Are they also going to come up with the 
resources and also the people power, so to speak, to do the 
things that are necessary once we get this security there? Are 
they willing to move to that level so the burden isn't 
completely on the United States and Great Britain?
    Mr. Greene. There have been offers from in-kind 
contributions of people and equipment from countries around the 
world, and we're having ongoing discussions with many 
countries----
    Mr. Ruppersberger. How about France?
    Mr. Greene. There has been discussions with France on 
contributions to--on a number of areas.
    Mr. Ruppersberger. OK. That's all, Mr. Chairman.
    Mr. Shays. Thank you very much.
    I would love make sure that you have a list of the 11 items 
that General Garner gave. Were they given to you? I'm going to 
ask you to look through that list and tell me what you would 
think needs to be part of that in the first--mid to late June 
to establish a positive slope. He said 11 critical tasks to 
complete by mid to late June to establish a positive slope 
toward success in Iraq.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.037
    
    Mr. Shays. So if you would please, look at that and see if 
there is anything that you would add to it. Is there anything 
that you catch right off that you would add?
    Mr. Greene. It looks pretty comprehensive to me, Mr. 
Chairman.
    Mr. Shays. OK. Is there anything?
    Mr. Garvelink. The only other thing, and it----
    Mr. Shays. I'm going to ask you to put your mic a little 
closer, even though I hear you, both of you.
    Mr. Garvelink [continuing]. Is the restoration of the 
electrical grid.
    Mr. Shays. OK. The restoration of the electrical grid. OK.
    If you think about anything that you had to add to it 
before the hearing ends, I'd love for you to add. So 
periodically, maybe if you would take a second look.
    There's a general acceptance that on a scale of 1 to 10, 
the war effort was an 11, that it was pretty stunning, and I 
think there's a feeling that people will look back and say, 
this was a moment in time in which there was some classic 
changes in battle. it will be studied. But I think most people 
would agree that the failure to rebuild Iraq, the failure to 
get it on a positive slope in which people are back to work, 
kids are back to school, the economy is starting to percolate 
after 20 years of being somewhat dormant, that there's a 
government established that recognizes majority rule but 
appreciates minority rights. I think it's very easy for people 
who aren't used to democracy to get the idea of majority rule. 
I'm not sure it's easy for them to accept the concept of 
minority rights.
    But that, I think, has got to be the key issue, and I don't 
think there's any option for failure. And so you both are 
involved in something that I think is huge, and I would say to 
you, as someone who voted to go into Iraq with great 
conviction, that if in the end we fail to rebuild this country, 
that the critics of my vote will in some ways be right.
    Would you tell me a logical reason why you would not want 
Members of Congress to be in Iraq, to understand the problem, 
to talk with people, to size up the problem and to be able to--
as leaders of a country, be able to do our job of knowing how 
to provide resources and so on. Is there a logical reason that 
you can see why Members of Congress shouldn't be in Iraq?
    Mr. Greene. There's not a logical reason, except if there 
were security considerations.
    Mr. Shays. Are you free to go to Iraq?
    Mr. Greene. Yes, sir.
    Mr. Shays. Is the press free to go to Iraq?
    Mr. Greene. Yes, sir.
    Mr. Shays. Do you think Members of Congress should get 
their positions based on what they see in the press, or should 
we try to get it firsthand? If it's possible?
    Mr. Greene. In Iraq and every place else in the world, we 
welcome Members of Congress visiting.
    Mr. Shays. Mr. Garvelink.
    Mr. Garvelink. I would agree. I think the only constraint 
would be the security situation, and there--I think while we're 
free to go to Iraq, if you're going for extended periods of 
time, there are certain kinds of training we're still required 
to get before we go, and I think everybody is. But I agree with 
Mr. Greene, everybody would welcome your presence as Members of 
Congress in Iraq to see what's going on and understand the 
programs that are underway there.
    Mr. Shays. The 8 hours I spent in Iraq were the most 
vibrant 8 hours I've spent in a long time, and everything I saw 
was not necessarily a surprise, but there were heightened 
degrees of, I didn't realize this was here or not. So it wasn't 
like everything was new, but everything I saw had an impact on 
me. I was struck by the poverty. I was struck by, in this one 
town, the lack of roads. I was struck by the housing 
conditions. I was struck by the failure of having running 
water. I was struck by the fact that the gas station I went to 
had nothing there, nothing. It was just like a skeleton, and it 
made me appreciate how immense the task was.
    I was struck by the fact that when I went there and the 
Save the Children were negotiating when they would bring in the 
fuel for the heat, that they were having to debate with the gas 
station attendant that there would be security, because there 
was a concern that as soon as the supply of this fuel came, it 
would just be taken by a mob of people.
    I might be able to see that on TV, but somehow hearing 
someone talk about it.
    Now, let me ask you, should I be surprised that neither of 
you knew what form of elective government exists in the local 
level?
    Mr. Greene. I don't know, Mr. Chairman. My focus has been 
on the relief efforts. I mean, I could have hazarded a guess 
that, of course, there wouldn't have been any democratic 
government elected locally.
    Mr. Shays. No. I wouldn't want you to hazard a guess, and 
there are going to be things you don't know. And that's not my 
point. I'm just asking if I should be surprised.
    Mr. Greene. No. I think it points to the--at least for my 
part, the lack of information about what was going on inside of 
Iraq.
    Mr. Shays. Mr. Garvelink.
    Mr. Garvelink. Yeah. I guess I would agree. For the past 4, 
5, or 6 months, I don't know quite how long it's been that 
we've been working on these issues, I think a lot of folks have 
been working on a lot of different humanitarian issues, and you 
focus on what you're doing. And I think Jay Garner gave a 
fairly good indication the task was a big one. One of the 
things we're doing at USAID is trying to get 487,000 tons of 
food to people every month. That requires something in the 
order of 10,000 trucks a month. One really has to focus one's 
attention to make that work. So this was not one of the areas 
I've been focused on.
    Mr. Shays. Fair enough. Abdul Hassan Mohammed when I was in 
Umm Qasr said to me--after he had pointed out some other 
concerns, he looked me in the eye, and he said, you don't know 
us, and we don't know you.
    I know what it said to me. What does that say to you? He 
was talking about Americans and Iraqis. We don't know you and 
you don't know us, what does that say?
    Mr. Greene. I just think it points to the--sort of the 
years of images we've built up about each other through various 
discussions in the press and in the media. It points to a lack 
of direct contact between Iraqi and Americans on issues that 
are of importance to how people carry out their daily lives, 
and it points to how we have to resume that as quickly as 
possible.
    Mr. Shays. Would you just elaborate on that last point, 
because it shows what they didn't know, and now you're stating 
an action, and what do you think that action has to be?
    Mr. Greene. The action means that we have to get out and 
get into the country as quickly as possible and factor in what 
Iraqis want for their country and to understand what the 
problems are, to understand what they've been going through, to 
understand how they see solutions emerging. There has to be a 
huge Iraqi involvement in everything that we do, and the only 
way you get that involvement is to get out and get into the 
country and talk to people.
    Mr. Shays. Mr. Garvelink.
    Mr. Garvelink. Yes. I would agree completely. The way--from 
your own explanation, when you're in the country and see 
things, it's very different. There are perceptions that both 
nations or both peoples have of each other that may be 
accurate. A lot of it is also inaccurate. Until we work 
together, you know, and start to understand each other's 
culture, we're never going to resolve some of the problems that 
are between us. You can't do that unless you work hand in hand.
    Mr. Shays. When I was in the Peace Corps in the south 
Pacific in the Fiji Islands, when you went from one village to 
another, if it was on one of the smaller islands, you couldn't 
go to the other village through one village without stopping 
in, and if there were three villages along the way, you had to 
stop in every village. You had to interact, you had to sit, you 
had to talk. You had to just go through these so-called 
niceties and kind of get to know each other.
    The next time you could walk through all three villages to 
get to that final destination, and so I felt the same way that 
you're basically stating, that in order for us to succeed, 
we're going to have to get to know them, and they're going to 
have to get to know us, besides our just trying to do good 
things for them.
    And I'm curious as to how you think that happens.
    Mr. Greene. I think that goes hand in hand with the--sort 
of the theme that we've had here in General Garner and part of 
your questions, is improving the security situation, so we can 
get out and have greater freedom of movement. So when we do 
have this freedom of movement, it's not in bullet-proof vests 
and heavy armored accompaniment, that we hold normal regular 
conversations with the regular Iraqi citizens. I mean, it's 
clearly what General Garner wants to get to as quickly as 
possible, and it's clearly what our entire team wants to get to 
as quickly as possible.
    Mr. Shays. I would tell you this is someone who has 
observed General Garner. He is an easy guy to talk with. He's 
very unassuming, and I would think that the Iraqi people, if 
they get to interact with him, would find him a very good man 
to work with. That's just kind of my--not my hope, but it's--I 
guess it's my hope as well.
    I'd like another 10 minutes, but we're going to go to you, 
Mr. Janklow, and then we'll go to you, Mr. Ruppersberger.
    Mr. Janklow. Mr. Chairman, I'm going to be brief.
    The question was asked earlier about safety in the 
communities. As I recall, prior to the war, the government of 
Iraq passed out weapons to the general public, tens of 
thousands of rifles. Is that accurate as far as either one of 
you know?
    And I'm also under the impression from--at least from news 
reports I saw prior to the war, that they sent the prisoners 
home.
    Mr. Greene. I've read probably the same reports you have 
about that, sir.
    Mr. Janklow. To what extent do either of you think on one 
of our secret weapons in this whole--we don't know us and you 
don't know us thing are the men and women of our Armed Forces--
I mean, there's a helicopter pilot from my home State we were 
just notified was killed rescuing a young Iraqi girl that had 
been injured by a land mine. I'm not aware that Saddam 
Hussein's military was known for those kinds of acts. I'm not 
sure that their military were known for treating individuals 
that were sick as opposed to just injured. I'm not aware that 
their military was known--at least even our media, some of whom 
don't like the effort, weren't known for writing stories about 
how their military went in and mingled amongst the people, fed 
them, transported them, assisted them. I'm just wondering to 
what extent you're planning on that being a secret weapon, if I 
can call it, in a getting to know each other routine.
    Mr. Greene. The men and women of our Armed Forces have been 
incredible Ambassadors for what we stand for as a country, and 
the more they get out, the more they get in situations where 
people can see what they're about and to see what our intents 
are, the better off we are and the more progress we'll make on 
this overall situation. I mean, they've been fantastic in every 
aspect of this operation.
    Mr. Janklow. Let me ask you, if I can, we've seen the 
looting, but to my understanding, it hasn't involved private 
property. It's involved governmental buildings of one sort or 
another. Is that relatively accurate or not?
    Mr. Greene. There's been reports--I mean, I've seen plenty 
of reports of looting of private property as well as----
    Mr. Janklow. Of individual's homes?
    Mr. Greene. Yes, sir.
    Mr. Janklow. I'm talking about the general citizenry as 
opposed to the people that own lots of palaces and things like 
that.
    Mr. Greene. Most of the reports that I've seen of general 
looting have been probably people with a lot of wealth.
    Mr. Janklow. Do you agree with that, Mr. Garvelink?
    Mr. Garvelink. Yeah. I've probably seen the same thing he 
has, and the great majority of the looting that has gone on has 
been of government buildings.
    Mr. Janklow. Both of you indicated that it was somewhat of 
a surprise the level of the looting that we've all seen and 
heard about. What I'm wondering is why, if I can ask that 
question general? This is a country where $20 in wages is a 
significant--is an at least an increase over what people were 
getting. It's a country where individuals didn't have, for all 
practical purposes from the testimony today, a water system 
that worked, a sewer system that worked, an electrical system 
that worked, schools where they didn't have books for the 
students, why wouldn't we think that where there's largesse out 
there, people under these circumstances wouldn't go after it as 
soon as they could, especially given the fact that they have 
lived for decades under these kinds of circumstances. What I'm 
wondering is why is this a surprise?
    Mr. Greene. I think that the fact that there was looting 
was not a surprise. I think that the extent of the looting was 
a surprise to the extent that water treatment plants had been 
looted, hospitals stripped bare, things like that.
    Mr. Garvelink. Yeah. I guess I was quite surprised by the 
extent of it. Having spent a lot of time in Somalia and Rwanda 
and other places at the time when we were providing 
humanitarian assistance, there was a lot of looting that went 
on, but I've never seen anything on the scale of this.
    Mr. Janklow. But in none of those countries do I think the 
government was overthrown by us when they were there. Here the 
government was gone, and we were the new people in town.
    Mr. Garvelink. Well, that's true. I'm thinking of terms 
where there was just general--well, in both--in Somalia there 
was no government, and the looting that went on just never 
reached this magnitude. I'm not sure that--I don't know why it 
would happen.
    Mr. Janklow. Look, I'm not going to take all my time. I 
just want to say it's been 3 weeks since the general shooting 
has stopped. As late as a few days ago, we still had members of 
our Armed Forces being killed. There have been phenomenal 
accomplishments made. I was sworn in on January 7, and Congress 
didn't even come back until the end of the month. That was 3 
weeks, and you got a lot more done in that 3 weeks than I did 
my first 3 weeks around here. So I think you've done an awful 
lot, and I think we've done an awful lot since January.
    Thank you.
    Mr. Shays. I thank the gentleman.
    Mr. Ruppersberger.
    Mr. Ruppersberger. We're talking about security, and I want 
to get into just a couple comments that were made. Let me say 
this before I get into these comments. It's very easy to 
criticize after the fact. The purpose of maybe the criticism 
would be to point out what we can learn, so that we can make 
sure that we can do it better the next time.
    After the President gave his speech about the mission 
accomplished, some media accounts and reports from 
nongovernmental and some governmental agencies is that we 
really did not sufficiently plan for or implement security 
measures in Iraq to the extent they should have been, except 
maybe for the oil fields.
    And as a result of that, we do have a lack of humanitarian 
assistance, and the pace still has not been where we need to be 
because of security, and we do have to have security first. We 
can't put people's lives on the line, whether it's our military 
or the civilians or whatever.
    And also I think just to quote a couple, it was an issue 
that I'm sure the administration wasn't happy about, but the 
Army's Chief of Staff, General Eric Shinseki, testified before 
the Senate Armed Services Committee and several hundred 
thousand soldiers--over 200,000 soldiers would have been 
necessary to maintain the security after we--the war was over. 
He also was involved in the stabilization of Bosnia. Did you 
work with him at all?
    Mr. Garvelink. No.
    Mr. Ruppersberger. Also we have retired Major General 
William Nash who commanded the first Army peacekeeping 
operations in the Balkans in 1995, and then he also said that 
there needed to be at least 200,000 U.S. and Allied Forces to 
stabilize Iraq.
    Now, Secretary Wolfowitz countered Shinseki saying that he 
disagreed. And since the war was over, the Pentagon has 
reportedly reduced the number of troops from 250,000 to 
135,000. Do you have any knowledge of that?
    Mr. Garvelink. No, sir.
    Mr. Ruppersberger. Now, if you did have, assuming that is a 
reduction, would you have an opinion whether or not that is 
appropriate at this time, based on the fact that there are 
security problems that exist which really affect the 
humanitarian assistance we can start giving the citizens and 
stabilizing the country? Would you feel that there needs to be 
more Armed Forces there?
    Mr. Greene. Sir, I'm not going to comment on any force 
deployment decisions by the Department of Defense, and I'm only 
going to highlight that every person associated with this 
operation at every level knows that restoring security is the 
highest priority and, sir, that currently there is no 
humanitarian crisis in Iraq. There are clearly pockets of need.
    Mr. Ruppersberger. Did I say crisis? I didn't mean to say 
crisis. I take that back. Humanitarian problem that exists.
    My point is that, if in fact it is necessary--there's a 
difference of opinion. That's always the way it is. It's just 
we want to try and get it right.
    Now, let me go to some specifics as far as what we're doing 
with respect to the humanitarian issues, and first ask you, did 
we learn anything from what was going on and what is still 
going on in Afghanistan that might help us in dealing with the 
issues that are going on from a humanitarian point of view that 
might help us with respect to Iraq? Or are they two different 
countries and it's tough to compare?
    Mr. Garvelink. I think, first of all, the situations are 
quite different and it's tough to compare the two. I think one 
of the lessons that we're seeing is that it's important to get 
to rural areas and to work in the rural communities and to 
emphasize assistance there. We're trying to do that in both 
locations, and it made very clear that's an important thing to 
do in Iraq.
    Mr. Ruppersberger. Let me ask this question. I think a lot 
that we have to look at--and I'm sure you have some expertise 
in the field. But what is our process of determining the types 
and amounts of humanitarian assistance needed for this 
postconflict? I mean, we have to have a plan. What is the 
process that we're looking at with respect to Iraq? I mean, are 
we focusing on--we have the list that was given to us, but 
there are also some other issues. I think you have different 
religious conflicts. You might have certain areas of the 
country that need to be targeted, where others might not. I 
mean, what process maybe that we've used in the past do you 
think is effective where we need to move forward?
    Mr. Greene. There is an extensive interagency planning 
process that has gone on for months in Iraq. General Garner 
talked about the entire Orhau operation. Ambassador Bremer has 
just gone out to Iraq to take over his position. We get 
extensive information and assessments of needs by international 
organizations and NGO's. We rely heavily on those assessments. 
There's just a wealth of information that we tap into and use 
to decide strategies.
    Mr. Ruppersberger. From a medical point of view, do you 
feel that, at this point, we are getting the resources both 
with respect to physicians and nurses--the physician assistance 
or the drugs that are needed to help those people that are in 
need? Where are we with respect to the medical option or the 
medical area of this humanitarian issue?
    Mr. Garvelink. I think we're doing quite well, but what 
we've done prior to the conflict is preposition medical 
supplies and equipment in the region. We had what they call 
World Health Organization [WHO] kits that could provide a 
basic--it provides basic medicine and equipment for 10,000 
people for 3 months.
    We had enough of those kits to have that kind of medical 
care for a million people in place when the conflict started. 
So WHO kits were moved into Iraq with military civil affairs 
units as soon as possible to health units and health clinics.
    When our teams actually could get into the country, they 
looked at clinics and at hospitals and looked at what more 
extensive repairs could be carried out. I think we're meeting a 
lot of the needs in the health sector that we can reach at this 
point in time, and as I mentioned earlier, one of the issues 
that is a concern is electricity, because you have to have a 
constant source of power for the hospitals, and that is 
improving, but that has been a concern.
    Mr. Ruppersberger. Do we have American doctors that are 
going over to Iraq and either volunteering their services or 
going over with fellowship or other programs? I know we did 
that in the Gulf war. I was on a board of the University of 
Maryland Shock Trauma System where we had physicians that were 
going. Do we have that program in place?
    Mr. Garvelink. On our USAID teams that we have, meaning the 
USAID teams, we have four or five physicians in Iraq right now 
or in Kuwait, and I think that your NGO panel that is coming 
later will probably be able to talk specifically about American 
doctors going back and forth.
    We have them on our USAID team, but the NGO's will be 
better placed to answer that question.
    Mr. Ruppersberger. Unfortunately, I have to leave at 4 
p.m., so I'm raising the issue now.
    That's all. Thanks.
    Mr. Shays. I thank the gentleman for participating.
    I'd like to just go through another round of questions here 
as well.
    I'd like to know how long we have been preparing for the 
rebuilding of Iraq. When did humanitarian assistance planning 
for Iraq begin? Mr. Garvelink, do you want to start?
    Mr. Garvelink. I'm trying to think of the exact month. I 
got into it a little bit later, I think in October.
    Mr. Greene. My participation in the effort started in late 
August, I think.
    Mr. Shays. Full time?
    Mr. Greene. Not full time but a lot of time, a lot of 
meetings.
    Mr. Shays. OK. I know you are both very dedicated public 
servants, and I know you work far more than 40 hours a week, 
but I really would like to get a sense of when this became your 
primary focus and responsibility.
    Mr. Greene. Became my primary focus probably with the first 
meeting in late August.
    Mr. Shays. OK. That's good. What did that process entail? I 
mean, did it entail a lot of meetings? Did it entail a lot of 
contacts with people? How does one start to begin to--did it 
involve contacting a lot of NGO's and saying, you all better 
get started here, we may be going in?
    Mr. Greene. It involved participating with Mr. Garvelink 
and many others on an interagency planning team, talking about 
various scenarios, trying to link up with possible military 
options. Obviously, no decision had been made about the use of 
force then or for many months afterwards. It also involved 
reaching out to international organizations, trying to get an 
assessment of their plans and their requirements and trying to 
match up our planning with their planning.
    Mr. Shays. Well, we all work for one country.
    Did you want to say something, Mr. Garvelink?
    Mr. Garvelink. Well, I was going to say, we've spent a lot 
of time together in the past 7 or 8 months in meetings. The 
other element to this is trying to determine budget 
requirements.
    Mr. Shays. But the----
    Mr. Garvelink. We've both made a few trips to the region to 
talk to countries there. So it's been----
    Mr. Shays. So the argument that somehow this plan to help 
rebuild Iraq was put together without a lot of thought or care 
is simply not true.
    Mr. Greene. I agree with that, sir.
    Mr. Garvelink. Correct. A lot of thought and work has gone 
into the planning.
    Mr. Shays. Did the war end a little sooner--I mean, most of 
the combat--sooner than you expected? Was there this thing, my 
God, we've got to be ready a little sooner than we anticipated? 
Was this a factor in this process?
    Mr. Greene. I don't think so. We focused I think, as I said 
to an earlier question, on a lot of--a lot of our focus earlier 
on was getting ready for large population displacements, and 
then----
    Mr. Shays. That never happened.
    Mr. Greene. That never happened. But to get ready for that, 
we talked about prepositioning assets around the region and 
doing what was necessary to be able to quickly move people 
quickly into the region.
    Mr. Shays. So there was some preparation for something you 
never had to deal with, and that was a relief. Then there was 
some surprise that some of the facilities became vulnerable and 
actually were a tempting target for looting, which was a 
surprise that you didn't anticipate in August--and I'm not sure 
I would have either--that you then had to do a little getting 
caught up to speed?
    Mr. Greene. Yes, sir.
    Mr. Shays. OK, you are both from the State Department. I 
get a little confused. USAID doesn't like to say they're from 
State Department, so----
    Mr. Garvelink. I think technically we are separate from the 
State Department.
    Mr. Shays. I knew you would say that.
    Mr. Garvelink. I have to say that or I can't go back to 
work.
    Mr. Shays. OK. Well, we'll say you're separate from, but 
you have to come under their budget; and if Secretary Powell 
tells you to jump, you jump. But other than that, you are 
separate.
    Mr. Garvelink. Right.
    Mr. Shays. OK. But I'm not quite sure whether I'm to view 
State Department as under the direction of DOD as things stand 
now. In other words, technically Mr. Bremer was with State, 
Ambassador with State, but his chain of command is through 
Secretary of Defense Rumsfeld to the White House. So are you 
technically working with the Department of Defense or do you 
view yourselves as working not under the Department of Defense? 
I just----
    Mr. Greene. Clearly, the State Department is not working 
for the Department of Defense. Ambassador Bremer, as you point 
out, is reporting to Secretary Rumsfeld; and we are working 
very closely with the whole effort. We all at ORHA--we are all 
trying to make it work, sir.
    Mr. Shays. OK.
    Mr. Garvelink. Our view of how this all operates is through 
a Country Team approach. When an ambassador is in his country 
or her country, all U.S. agencies are represented there, and 
the overall authority in the country is the U.S. Ambassador. 
And that's the way we viewed this. General Garner, Ambassador 
Bremer, is the overall authority there. We are all working 
under the general guidance of that individual.
    Mr. Shays. Mr. Bremer? You are working under the guidance 
of Mr. Bremer?
    Mr. Garvelink. I'm not sure where it stands at the moment, 
with the shift. But it would be under the senior U.S. official 
in the country.
    Mr. Shays. Wouldn't you agree by your answer that there is 
a little bit of uncertainty as to how this works, both of you?
    Mr. Greene. I'm----
    Mr. Shays. These questions are not to put you on the spot. 
It's to understand--you both are doing a great job, and I know 
that from many people who have spoken to me and knowing of your 
coming to testify. But the bottom line is, should I just view 
this as kind of a fluid situation a bit?
    I mean, what I get nervous about is, in my office, if three 
people have control, nobody has control. In the end, I say, if 
something goes right or wrong, it rests with--and I pick 
somebody, because I need to have one person ultimately know.
    So you both--you report to your superior at USAID, and you 
ultimately report to the Secretary of State. Correct?
    Mr. Greene. Yes, sir.
    Mr. Shays. But you are working under the auspices of ORHA 
and under the Department of Defense, and is that just kind of 
the way I'm to view it?
    Mr. Greene. No, sir.
    Mr. Shays. OK.
    Mr. Greene. We are working with ORHA in a collaborative 
effort. The people that are on the ground in Iraq are working 
under ORHA report to--will now report to Ambassador Bremer who 
reports to the Secretary of Defense. But here, back here at 
headquarters, we are working collaboratively with the 
Department of Defense on these issues.
    Mr. Garvelink. Because the perspective I was offering was 
from the field. Rich is right from back here.
    Mr. Shays. Fair enough. What criteria does USAID use to 
gauge the capacity and success of humanitarian assistance 
organizations and their suitability as partners? That's your 
responsibility pretty much, Mr. Garvelink?
    Mr. Garvelink. Yeah.
    Mr. Shays. You work with the NGO's. And let me just 
editorially say, for me, the big heros in this process are the 
NGO's. I mean, for me to see them kind of getting ready--they 
are in Jordan. They are in Cyprus. They are in Kuwait. They do 
this all the time, that they go to many places around the world 
where life is a danger. They are pros, they are experienced 
people, and you make them--it seems to me you help them with 
the extraordinary resources you provide them. But they are 
absolutely--you are absolutely dependent on them, I gather, in 
order to accomplish the tasks that USAID needs to accomplish. 
Is that correct?
    Mr. Garvelink. Correct. We have a very close working 
relationship with the NGO community, and we are an agency that 
provides support to them. Our job is to facilitate their work. 
We do not implement our humanitarian programs. We rely 
primarily on the NGO's to do that.
    Mr. Shays. And that's a policy over the last 10 years. 
That's a shift in policy over the last 10 to 15 years?
    Mr. Garvelink. I think for USAID that's always been their 
approach to providing humanitarian assistance, is through the 
NGO's.
    Mr. Shays. My sense was that we squeezed down the number of 
people in USAID, and that you became more and more dependent on 
NGO's to accomplish the operational task. But that's not true?
    Mr. Garvelink. Well, I'm looking at it from the 
humanitarian side of USAID. We've always been kind of small, 
and we have always been reliant on the NGO's.
    Mr. Shays. Fair enough. So, getting to my question: What 
criteria do you use to gauge the capacity and success of 
humanitarian assistance organizations?
    Mr. Garvelink. Well, the organizations that we work with we 
know and have worked with for a long time; and so we know their 
capacity for management back in their headquarters. We travel 
frequently to the field and look at their programs, talk to 
them, plan their programs.
    One of the issues that's just a very fundamental one is the 
accounting structure that's a requirement to handle U.S. 
Government funds. So all of these NGO's certainly have that 
capacity, and in our working with these--and as I have over the 
years you get to know the strengths and weaknesses of each 
organization.
    Mr. Shays. Because you've worked with them in so many parts 
of the world?
    Mr. Garvelink. All over the world and for the past 25 
years.
    Mr. Shays. I mean, is it conceivable that five NGO's are 
going to compete for the same grant, or do you have so many 
grants right now there is not this kind of competition? Are you 
running out of NGO's to do the work, or are NGO's running out 
of money to get from you?
    Mr. Garvelink. Neither.
    Mr. Shays. OK.
    Mr. Garvelink. There is resources to go around to fund the 
NGO's. And I think the way we have divided up--if you are 
speaking specifically of Iraq, we have six cooperative 
agreements with major NGO's to work in certain parts of the 
country and provide a whole range of assistance; and under the 
circumstances right now, that seems about right.
    Mr. Shays. Would you explain to me--the NGO's will tell me 
why neutrality is extraordinarily important. Would you both--
Mr. Greene, you get involved with the NGO's as well.
    Mr. Greene. Yes, sir.
    Mr. Shays. Would you both explain to me in your words while 
you believe neutrality is important.
    Mr. Garvelink. I think impartiality is important. I'm not 
so sure that I would put neutrality in that same category. And 
I think Iraq may be a good case. We are not neutral in Iraq. We 
are----
    Mr. Shays. The issue is, are these NGO's to be an 
instrument of the U.S. Government, or are they an instrument of 
their own organization to do good works using the resources of 
the U.S. Government? They would argue that they can't go into a 
place as an instrument of the U.S. Government.
    Mr. Garvelink. I would accept that.
    Mr. Shays. That's how I meant the word neutrality.
    Mr. Garvelink. OK. We do not view the NGO's as an 
instrument of the U.S. Government. We view them as a partner in 
providing humanitarian assistance, and they have expertise in 
skills and characteristics that the U.S. Government does not 
have. We are not there for that long period of time. We are not 
on the ground. We don't know the people like they do. NGOs have 
to maintain a certain independence from us, and that makes 
sense to us.
    Mr. Shays. And that makes sense.
    Mr. Greene.
    Mr. Greene. I would agree with that, sir.
    I would also add that there are many cases--in most cases 
there's a confluence of objectives between what NGO's want to 
have happen and what we as a U.S. Government also want to have 
happen in terms of responding to the humanitarian distress.
    Mr. Shays. You know, I think you both have extraordinary 
opportunities. I think you're--if I could say it this way, I 
think you are doing the Lord's work. And one of the things that 
moved me deeply when I got to go into Iraq was I looked at 
these NGO's as we were having a meeting in the base, the 
British base at the port; and I was thinking these folks devote 
80 hours plus a week. They are not--their remuneration isn't 
what it might be in some other business. But they are doing 
extraordinarily good things with the resources, in many cases, 
of the U.S. Government; and they do it with a lot of courage, 
frankly.
    When we went in, there was the argument that there needed 
to be someone guarding me; and Save the Children's folks said, 
we are not going in under any protection, military protection. 
The explanation was because they have to go in as a neutral 
force; and I thought, they do this all around the world, and I 
just pray that we use them well.
    Just one last area. I would like to know if you believe 
that we should be--excuse me. This is a policy issue, so I 
don't want to put you on the spot this way.
    How do you react to the argument that the U.N. has--first, 
let me ask you this. How did you react to the fact that the 
U.N. seemed reluctant to end the embargo?
    Mr. Greene. I don't accept the premise that the U.N. was 
reluctant to enter Iraq. U.N.--I know that the U.N. relief 
agencies were doing everything possible to get into Iraq and 
are now in Iraq and gathering storm and gathering momentum.
    Mr. Shays. And these are very skilled people. Correct?
    Mr. Greene. Yes, sir; and they also provide the overall 
coordination structure that the NGO's will plug into. Their 
presence and coordination is essential to this process.
    Mr. Shays. That's very important to put on the record. In 
other words, we need their network or their system in order for 
the NGO's to be successful.
    Mr. Greene. Yes, sir.
    Mr. Shays. Do you agree with that, Mr. Garvelink?
    Mr. Garvelink. Yeah. I think the various organizations that 
we work with all have particular skills and strengths, and the 
U.N. is very important as the overall umbrella to humanitarian 
operations. Its presence is critical for dealing with host 
governments and setting the stage for what the rest of us do. 
No one else can play that role, and we can't operate without 
them.
    Mr. Shays. I had this feeling, if I didn't have the job I 
have right now, I would love the job that both of you have. And 
you might say I'm crazy because I maybe don't understand what 
keeps you up at night. But I would think that you are doing 
very important work. The success of our Nation's endeavor 
depends in large measure on what you do with the people that 
you work with; and the impact in the region and ultimately on 
the world, to me, rests with your good work. So, not to put a 
burden on you, I hope to God you succeed with flying colors.
    Do you have anything you want to put on the record before 
we go to our next panel?
    Mr. Greene. No, sir. Only that we greatly appreciate your 
support.
    Mr. Shays. Well, you have it.
    Mr. Garvelink. Yes. Thank you very much.
    Mr. Shays. Thank you both very much. I appreciate it a lot.
    Our final panelists are Mr. Curtis Welling, president and 
CEO of AmeriCares; Mr. George C. Biddle, senior vice president, 
International Rescue Committee; Mr. Rudy Von Bernuth, vice 
president and managing director, Children in Emergencies and 
Crisis, Save the Children; Mr. Kevin M. Henry, director, Policy 
and Advocacy, CARE.
    And for nothing but honesty in government, I would like to 
disclose that two of these witnesses--and with some pride--
disclose that two of these witnesses or organizations, 
AmeriCares and Save the Children, are based in the Fourth 
Congressional District of Connecticut.
    I would ask unanimous consent to insert the following 
documents into the record: a letter from Dean R. Hirsch, 
president, World Vision, stating they will not be able to 
testify; and written testimony from Mr. Bill Frelick, Refugee 
Program, Amnesty International. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.038
    
    [GRAPHIC] [TIFF OMITTED] T9546.039
    
    [GRAPHIC] [TIFF OMITTED] T9546.040
    
    [GRAPHIC] [TIFF OMITTED] T9546.041
    
    [GRAPHIC] [TIFF OMITTED] T9546.042
    
    [GRAPHIC] [TIFF OMITTED] T9546.043
    
    [GRAPHIC] [TIFF OMITTED] T9546.044
    
    [GRAPHIC] [TIFF OMITTED] T9546.045
    
    [GRAPHIC] [TIFF OMITTED] T9546.046
    
    [GRAPHIC] [TIFF OMITTED] T9546.047
    
    Mr. Shays. I'm going to ask all of our four witnesses to 
stand. Gentlemen, I'm sorry to keep you waiting so long, but 
it's great to have you here.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all four of our witnesses 
have responded in the affirmative.
    We will go in the order that you are sitting and do really 
appreciate your being here. Thank you very much.
    Mr. Welling.

STATEMENTS OF CURTIS R. WELLING, PRESIDENT AND CEO, AMERICARES; 
 GEORGE C. BIDDLE, SENIOR VICE PRESIDENT, INTERNATIONAL RESCUE 
   COMMITTEE; RUDY VON BERNUTH, VICE PRESIDENT AND MANAGING 
    DIRECTOR, CHILDREN IN EMERGENCIES AND CRISIS, SAVE THE 
 CHILDREN; AND KEVIN M. HENRY, DIRECTOR, POLICY AND ADVOCACY, 
                              CARE

    Mr. Welling. Thank you, Congressman----
    Mr. Shays. You need to move that mic up and turn it on.
    Mr. Welling. Is that better?
    Mr. Shays. That's wonderful.
    Mr. Welling. Thank you, Congressman Shays. It's a pleasure 
and honor to be here to discuss our experience in providing 
emergency medical assistance in the context of the war in Iraq.
    AmeriCares is a privately funded disaster relief and 
humanitarian aid organization. For 20 years we have been 
providing rapid humanitarian response to disasters worldwide in 
the form of medicines, medical equipment, and other shelter and 
relief supplies. Over that time, we have worked in 137 
countries and we have been involved in virtually all 
significant disasters for two decades, including earthquakes, 
floods, hurricanes, as well as man-made disasters in places 
like Rwanda, Kosovo, and Afghanistan.
    To date, we have delivered more than $3 billion worth of 
humanitarian assistance, and we stay after the disaster is 
completed. Last year, we provided ongoing humanitarian medical 
assistance in over 50 countries around the world.
    Our model stresses speed, careful needs assessment, the 
identification of strong local partners, leveraging cash 
donations with in-kind contributions to maximize volume and 
impact of assistance. Our donors responded immediately and 
enthusiastically to the crisis in Iraq. To date, we have raised 
$700,000 in cash and over $10 million in in-kind contributions 
from a broad range of America's pharmaceutical and medical 
companies.
    Despite the logical difficulties and impediments that one 
is confronted with in this situation, I'm happy to report that 
the model has worked in Iraq. As a result, on April 23, we were 
able to move 20 tons of critical medical supplies over land 
through Turkey into Erbil and Kirkuk. We are told that's the 
first distribution of emergency medical assistance of any 
consequence in that part of Iraq.
    More recently, just this past Sunday, on May 11, an Ilyshin 
76, a plane not of our manufacture, with 40 tons of medicines 
and other critical supplies landed in Baghdad. We believe that 
was the first NGO flight of emergency medical supplies.
    Mr. Shays. Did you fly in that plane?
    Mr. Welling. I didn't, although I expect to go in one soon.
    Mr. Shays. OK.
    Mr. Welling. And those medical supplies are being 
distributed as we speak pursuant to an assessment that had been 
going on on the ground by AmeriCares' personnel for the 
preceding week.
    We are planning another airlift of equal size, about 40 
tons, for the 22nd of this month; and, Congressman, I am here 
to tell you, pursuant to the question that you asked earlier, 
if you would like to go with us, we would be happy to have you 
accompany us on that trip on the 22nd.
    Despite these missions, we all believe that this is just 
the beginning. We expect to be working in Iraq for a 
considerable time; and despite the fact that these are early 
days, we have learned much from our experience.
    One of the unique things about this situation is that we 
had time and a great deal of information, and that's not the 
norm in a disaster context, as you know. So there was time to 
plan and organize. There was time to consider the very 
substantial amount of information that had been produced by the 
NGO's and the multi-lateral organizations on the ground. We 
knew the war would cause significant incremental deterioration; 
we knew it would require massive effort; and, very importantly, 
we knew that America would be judged in part by how well we met 
the challenge. And, reflecting that, the President made a 
pledge on behalf of the American people to provide immediate 
humanitarian assistance.
    Notwithstanding all of these things--the time to plan, the 
information, the understanding of what was at stake and, I have 
to say, notwithstanding the good-faith efforts of hundreds if 
not thousands of people in and out of government--our 
experience has caused us to conclude that there are things that 
we could have done better.
    The first thing that we learned was not to trust or be 
complacent about our assumptions but to question and plan for 
contingencies. The government and the nongovernmental 
worldwidely anticipated a refugee and displacement crisis 
perhaps of historic magnitude. In the event, happily, that 
crisis never materialized. However, substantial redeployment 
and retooling of the plan was required as a result of that 
planning assumption. The lesson is that contingency planning 
and flexibility are critical, given the extraordinary 
complexity of the situation.
    But of all the lessons that we learned--and our learning 
continues--two stand out to us as particularly important.
    First, we think it's critically important to designate and 
empower a central point of authority at the highest level. I 
want to say that again, because we believe it's so important. 
We believe it's critically important to designate and empower a 
central point of authority at the highest level.
    What I mean by this is an authority which is clearly in 
charge, an authority which can speak with clear, unambiguous, 
and authoritative voice, which can cut decisively across 
departmental and organizational lines to direct, facilitate, 
communicate and control and to ensure that efforts are planned 
and not duplicated or frustrated because of turf, confusion, or 
red tape.
    Clearly, this was not done. Many organizations were created 
with lots of acronyms, but, in our view, if there was ever a 
need for a government czar empowered at the highest level to 
oversee planning and execution of a critical government 
priority, this was such a time.
    In our own case, the absence of an authority to cut through 
some of this red tape was particularly dramatic. The fact that 
it took us 24 days to receive OFAC and U.N. 661 approval, which 
approvals had clearly been rendered moot by the stunning 
military success of our Armed Forces, while at the time we 
waited on the Iraqi border with 65,000 pounds of critical 
medicines and supplies was both frustrating and deeply 
troubling.
    The second key lesson we take from this crisis is that 
planning and preparedness are crucial, and we've heard much 
about planning and preparedness in the discussion so far today. 
Simply put, it's our view that the resources committed to 
planning and preparation for the humanitarian response were not 
well coordinated, were not transparent, and didn't match the 
magnitude of the challenge nor the importance of success.
    Consider, if you will, as a counterpoint the experience of 
the journalist community and the resources committed to 
facilitate an unprecedented level of access and media coverage. 
Giving credit where it's due, the Department of Defense did a 
remarkable job in anticipating and finding creative ways to 
plan for and manage the process, down to the reporters' boot 
camp. The same level of preparation, planning, and transparency 
could have been employed with respect to post-conflict security 
and humanitarian assistance. Such a thoughtful commitment would 
have facilitated better coordination, earlier access for 
evaluation and analysis purposes, clearly would have 
facilitated a speedy transition from military to civilian 
control.
    While I'm not sure if humanitarian boot camp is the 
appropriate characterization, the same rationale is valid: 
Creative planning, transparency, and preparation under the 
direction of a central point of control are critical elements 
for success.
    To those who argue that the situation is too complicated, I 
respectfully disagree. The greater the complexity of the crisis 
and in the resource coordination, the geometrically greater the 
need for thoughtful planning, modeling and one person to be 
held accountable.
    Finally, let me conclude my remarks with a word about 
safety and security. Much has been made and reported about the 
reluctance of nongovernmental organizations to work under the 
direction or protection of a military force; and, as you have 
observed, different organizations will accept different 
boundaries in this context. This is a valid and important 
issue, and it's important for this body to recognize it as 
such.
    The reluctance of NGO's to work under the control of a 
military power is appropriate. One of the first principles of 
humanitarian assistance is neutrality and independence. It's 
the cornerstone of our reason for being and a source of much of 
our credibility.
    In order to maximize the effectiveness of the humanitarian 
response, this principle must be acknowledged and respected. 
It's as simple as that. No one doubts the need to have military 
in control of all the activities during the period of active 
hostilities. Further, it's clear that for a period of time 
thereafter, the period in which we now find ourselves, all 
parties are acting under the security umbrella provided by the 
Coalition forces as an occupying force. This is correct. It's 
also the Coalition's responsibility.
    I'm pleased to tell you that in our own activities in Iraq 
so far we have received superb coordination from the military 
units we have dealt with in Iraq, both in Kirkuk and in 
Baghdad. Simply put, however, it does not seem at the policy 
level that a high enough priority was given to providing 
security arrangements to facilitate access of humanitarian aid 
organizations for evaluation and assessment purposes. 
Obviously, this is an important consideration in an environment 
where speed, days and weeks, desperately matter. Our future 
response in future contexts will be compromised to the extent 
that these principles are not well understood or accepted.
    Once again, we thank you for the opportunity to share these 
views with the committee today, and we look forward to your 
questions.
    Mr. Shays. Thank you so much, Mr. Welling.
    [The prepared statement of Mr. Welling follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.048
    
    [GRAPHIC] [TIFF OMITTED] T9546.049
    
    [GRAPHIC] [TIFF OMITTED] T9546.050
    
    [GRAPHIC] [TIFF OMITTED] T9546.051
    
    [GRAPHIC] [TIFF OMITTED] T9546.052
    
    Mr. Shays. Mr. Biddle.
    Mr. Biddle. Mr. Chairman and members of the committee, 
thank you for the opportunity to speak about Humanitarian 
Assistance Following Military Operations: Overcoming Barriers.
    I have submitted my statement for the record and will take 
this opportunity to highlight the critical actions that should 
be taken to overcome barriers and best ensure that humanitarian 
activities in Iraq and Afghanistan will be carried out 
successfully and effectively. They include: No. 1, protecting 
civilian populations and establishing a secure environment; No. 
2, obtaining the greatest level of international legitimacy and 
support by defining a clear role for the United Nations; and, 
No. 3, separating military and humanitarian efforts.
    Delaying or not carrying out these actions can have 
profound consequences for the successful delivery of 
humanitarian assistance after military operations.
    Protecting civilians and establishing a secure environment. 
If you ask the United Nations and the humanitarian and human 
rights nongovernmental organizations in Afghanistan what the 
greatest obstacle is to Afghanistan's rehabilitation, they all 
give the same answer, lack of security. The U.N. Security 
Council supported establishment of the international security 
assistance force in Afghanistan following the war. To date, the 
5,000-member force has deployed in and around Kabul but not to 
the other regions of Afghanistan. The need to enhance security 
because of the multitude of threats is critical to the ability 
of aid organizations and the U.N. as well as the government of 
Afghanistan to deliver assistance to communities in need.
    I recommend that you read the May 6 report to the U.N. 
Security Council from Lakhdar Brahimi, the Secretary General's 
Special Representative in Afghanistan, which gives an 
unvarnished view of this acute problem.
    There are a number of efforts under way to address the 
security crisis in Afghanistan, including demobilization of 
combatants, decommissioning of weapons, the creation of an 
inter-ethnic Afghan international army, and the establishment 
of a national civilian police force.
    Beyond strengthening these efforts, the real issue at hand 
is the critical need to extend the international security 
assistance force beyond Kabul, to assist the government, the 
international community and local and international NGO's to 
meet the real needs of Afghan citizens.
    NATO is due to take the lead in ISAF this summer, and we 
hope that NATO's involvement will be more robust and more 
effective in disarming the warlords, securing the borders and 
creating an environment for the central government to develop 
and govern beyond Kabul. NATO can aid the national army in 
securing the countryside and protecting the Afghan people. A 
firm NATO mandate in Afghanistan is critical to that country's 
future, especially in advance of national elections in 2004.
    The threats to security in Afghanistan and Iraq are eerily 
similar. They include insecurity in the aftermath of war, 
desire for revenge and retribution, ethnic and sectarian 
divisions, displaced populations, factional competition, and 
interference by neighboring countries.
    There are currently over 200,000 U.S. forces deployed for 
Iraq. At present, they are unable to maintain effective law and 
order, and there is no administration of justice. Under the 
Geneva conventions, the Coalition is legally responsible as the 
occupying power to protect civilians, including restoring law 
and order, basic due process, and judicial guarantees. The 
upsurge in violence and crime in Baghdad, the looting of 
hospitals, and the recent violence in Falujah all speak to the 
urgency of this critical issue.
    The Iraqi people are not accustomed to this level of chaos 
and crime. They are becoming increasingly scared and angry and 
are beginning to lose confidence in the coalition's ability to 
do what it said it would do: restore electricity, water, and 
sanitation services, rehabilitate hospitals and clinics and 
meet the critical needs of the populace.
    The Coalition must comply with international humanitarian 
law and do more to protect Iraqis from the looting, lawlessness 
and frontier justice developing in the center and southern 
regions of Iraq. Civilians are asking Coalition forces for more 
security and protection measures. Shadow security networks are 
now emerging. Tribes, villages, ethnic groups, mosques, 
communities are banding together or around leaders to man armed 
neighborhood watches and administer on-the-spot justice. This 
will only develop and spread in the absence of legitimate 
security authorities and make the work of humanitarian actors 
more difficult.
    If the Coalition doesn't get a grip on the situation 
quickly, they will find themselves in a dire situation. 
Temperatures are reaching close to 100 degrees Farenheit in 
parts of the country, and outbreaks of waterborne disease, like 
cholera, which recently appeared in Basra, will likely become 
more widespread. It is urgent that the security environment be 
addressed immediately so that the Coalition doesn't ``lose the 
peace.''
    Obtaining the greatest level of international legitimacy 
and support by defining a clear role for the U.N.
    Since the fall of the Taliban, the U.N. has been an 
integral leader in providing humanitarian assistance as well as 
developing a transitional administration in Afghanistan. At the 
Bonn Conference to decide the transitional administration and 
loya jirga process in Afghanistan, the U.N. effectively 
facilitated the overall post-conflict effort to ensure peace 
and improve the welfare of Afghans.
    Once the Afghan interim administration took office, the 
U.N. assistance mission in Afghanistan, known by its acronym 
UNAMA, was established in Kabul to support and provide 
technical assistance to the interim administration in meeting 
humanitarian and protection needs. Another critical role the 
U.N. has played is to rally the donor community to meet 
Afghanistan's needs.
    In Iraq, the Coalition continues to go it alone and has 
just indicated its support for a clear U.N. role. The 
International Rescue Community, together with other NGO's, has 
called on President Bush to turn to the U.N. to lead 
humanitarian efforts in Iraq. The World Food Program and UNICEF 
have worked in Iraq for the last decade, and the U.N. has 
managed the Oil for Food Program, the largest single relief 
effort in the world, for the past 12 years. U.N. involvement 
will help to coordinate agencies, international donors, and 
local and international NGO's and will encourage burden sharing 
by the international community in meeting the needs of the 
Iraqi populace. A U.N. role will also ensure the independence 
and impartiality of humanitarian assistance in a way that no 
occupying power can. This will enhance the trust of national 
and international actors, which is critical to a successful 
humanitarian effort.
    A clearly defined and leading U.N. role in the relief and 
reconstruction of Iraq is also necessary for the development of 
civil society.
    In many towns and cities, Iraqis are beginning to form city 
councils and reinvigorate civic organizations. To date, it has 
been the Coalition forces, specifically the Civil Military 
Operations Centers, that have encouraged and at times even co-
located with fledgling city councils as they begin to address 
key issues such as water, sanitation, power, education, and 
health services. Yet for all the good intentions and even early 
progress, the city councils' military association may have a 
divisive and discrediting long-term effect in the eyes of many 
Iraqi citizens wary of occupation.
    According to an IRC senior staff member just back from 6 
weeks in the region, a sustained military role in the 
development of Iraqi society to the exclusion of the United 
Nations may well be self-defeating. In An Nasiriyah, for 
example, some key community groups such as a women's volunteer 
association composed of education and health professionals are 
intentionally staying away from relief and reconstruction 
efforts perceived to be military led.
    This is a critical time for Iraq and its nascent civil 
society. It is imperative that structures be put in place that 
encourage maximum civilian participation. A clear and robust 
role for the U.N. can help bring Iraqis together to develop the 
practices and institutions necessary to ensure a free and 
democratic society.
    Last, just a few points on the separation of military and 
humanitarian efforts.
    The blurring of the lines between military and humanitarian 
operations is of the utmost concern to the humanitarian 
community. It is important to understand the humanitarian 
community's perspective on the reasons why U.N. authority and 
civilian oversight of humanitarian activities are so important, 
and in my remarks I will echo what my colleague has just said.
    First, the military should do what it does best--fight wars 
and provide security--and humanitarian organizations should do 
what we do best--care for civilians and deliver assistance to 
those in need.
    Second, humanitarian assistance must be provided on an 
impartial basis to ensure that all civilians in need--
regardless of race, creed, nationality, or political belief--
have fair and equal access to aid. The U.N. is clearly more 
independent and more impartial than any one party to a conflict 
and therefore should coordinate and direct relief efforts.
    Although the Pentagon's Office for Reconstruction and 
Humanitarian Assistance is currently heading the humanitarian 
response in Iraq, the IRC and other humanitarian organizations 
have been assured that our efforts and implementing 
partnerships remain with USAID and the State Department. This 
distinction, while critical to the provision of aid in this 
circumstance, is a dangerous precedent and one that calls into 
question the motivations as to why, how, and where humanitarian 
assistance is provided. This is shared by other NGO's and many 
in the international donor community and will likely become a 
greater concern of local Iraqi communities over time.
    For NGO's such as the IRC to work effectively in a post-
conflict setting, we must establish a close and trusting 
relationship with the communities we serve. To do so, we must 
be seen and known to be impartial and independent of any 
military force.
    Last, confusing military and humanitarian activities 
carries great security risks for those delivering assistance. 
Our safety often depends on local perceptions. Aid workers are 
obviously not armed, cannot defend themselves, and must never 
be mistaken for members of the military. Their lives depend on 
it.
    The humanitarian agencies respect and appreciate the 
critical role the military plays in establishing security after 
conflict, and we are grateful for it. But because of our 
commitment to impartiality and independence and the critical 
need to develop a trusting relationship with he communities we 
serve, we cannot accept military supervision. This is a 
challenge we are facing in Iraq. As a result, we have had to 
add conditional language to our grant agreements with USAID to 
ensure traditional civilian reporting structures.
    If this trend continues, the space for humanitarian 
agencies will shrink and fewer will be involved in responding 
to crises such as exist in Iran and Afghanistan. Donors from 
other countries will likely refuse to coordinate and cooperate 
and the result will mean fewer people in need will receive the 
services they so desperately require.
    Thank you.
    Mr. Shays. Thank you very, Mr. Biddle.
    [The prepared statement of Mr. Biddle follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.053
    
    [GRAPHIC] [TIFF OMITTED] T9546.054
    
    [GRAPHIC] [TIFF OMITTED] T9546.055
    
    [GRAPHIC] [TIFF OMITTED] T9546.056
    
    [GRAPHIC] [TIFF OMITTED] T9546.057
    
    [GRAPHIC] [TIFF OMITTED] T9546.058
    
    [GRAPHIC] [TIFF OMITTED] T9546.059
    
    Mr. Shays. Mr. Von Bernuth.
    Mr. Von Bernuth. Thank you, Mr. Chairman; and thank you 
again for providing Save the Children the opportunity to 
testify before your committee. I want to thank especially you, 
Congressman Shays, for your leadership and support of Save the 
Children's work in Connecticut and around the United States and 
in more than 40 countries around the world. Your recent visit, 
which you have referenced several times, to our programs in 
Iraq and West Bank and Gaza and your subsequent support for the 
Women and Children in Armed Conflict Protection Act are greatly 
appreciated by myself and all of my colleagues.
    Save the Children has been active in the Middle East for 
more than 30 years. We are committed to addressing the ongoing 
needs of children and their families in Afghanistan and Iraq as 
well as those in need around the world.
    My comments today will focus on three points regarding the 
role of nongovernmental organizations in post-conflict 
settings: the lessons we have learned from Afghanistan, the 
barriers that we are encountering in Iraq, and finally the 
solutions that we recommend for overcoming these barriers in 
Iraq and in future conflict situations. And I will try to 
lightly edit my remarks to eliminate too many repetitions of 
what George has recently said.
    In 1985, Save the Children established its Pakistan-
Afghanistan Field Office to respond to the needs of an 
estimated 3.5 million Afghan refugees then living in Pakistan. 
We expanded our work to Afghanistan in 1989. We opened our 
first offices in 1993 inside of Afghanistan, and we have been 
working there ever since, throughout the Taliban period and 
afterwards.
    In the year following September 11, Save the Children 
delivered approximately $25 million in relief and 
reconstruction assistance in that country.
    In Afghanistan, the Agency Coordinating Body for Afghan 
Relief [ACBAR], of which Save the Children serves with CARE, 
IRC, and other major NGO's, has articulated the following two 
key points about the role of NGO's working in Afghanistan: the 
importance of a secure environment for reconstruction, the 
necessity of long-term funding commitments for Afghanistan.
    Indeed, these two key issues and the failure to address 
them currently compromise the prospects for an Afghan recovery. 
Let me address each of them.
    The importance of a secure environment for reconstruction. 
Security and protection are vital to the work that we do and to 
the reconstruction and development of Afghanistan. Because of 
the international desire to support the notion of a successful 
interim government, the fragility of the political and security 
situations today tend to be underplayed by our government and 
in representations to the international media. Let me assure 
you that anyone who has staff on the ground in Afghanistan 
today knows that there is no question but that security is 
tenuous and is getting worse.
    In Kabul, the biggest risks today are terrorist acts and 
armed robbery; and George has already talked a bit about the 
role of ISAF and the need to expand that role to provide a 
secure working environment throughout the country.
    Anecdotally, I would just mention that outside of Kabul in 
the north, where Save the Children conducts programs, the 
tensions between the political parties seem to be on the 
increase; and where politics fail, security also fails.
    For example--and this is just one of a number of incidents 
over the last year which have affected our staff. On April 8, 
following the appointment of a new civilian Governor, tensions 
between Jamiat and Jumbush troops came to a head, resulting in 
2 days of heavy fighting and 3 days of sporadic fighting. A 
Save the Children international staff member based in the town 
of Maimana was evacuated along with others in a convoy of U.N. 
and NGO staff on April 9. As of April 17h, an unexploded rocket 
propelled grenade was still lodged in the wall of the house of 
one of our national staff members who was waiting for de-miners 
to remove it, a reminder of the continuing risk posed by the 
conflict.
    So, the bottom line, we need the U.S. Government to support 
efforts to ensure security and to recognize that this requires 
an external presence in order to succeed.
    Point two, the necessity of long-term funding commitments 
for Afghanistan. We have learned from our experience in 
Afghanistan that the only way to ensure development success is 
by ensuring long-term funding that provides the bridge from 
emergency humanitarian assistance to sustainable community-
based development programs. And yet we are woefully behind 
meeting the funding levels agreed to in the Afghan Freedom 
Support Act, and we are seeing an increasingly dangerous 
situation for NGO's working in Afghanistan.
    From the start, the money pledged to Afghanistan did not 
compare well to other host conflict situations, for instance, 
the countries in the Balkans. Even more serious, those 
commitments have not been fulfilled as donor aid has fallen far 
short of the Tokyo pledges.
    Among my colleagues in the field, we are seeing a general 
sense of progressive disengagement by our government toward the 
Afghan people. Having seen U.S. interests and commitments to 
Afghanistan wax and wane several times over the last decade, 
Save the Children calls on the U.S. Government to make 
commitments on a multi-year basis. The United States and other 
countries need to keep faith with Afghanistan and stay the 
course with substantive and sustained support if we hope to 
achieve a sustainable peace.
    Working in Iraq. Save the Children currently has 26 
expatriate staff, most of them now in Iraq. Congressman Shays, 
when you were there, many of them were still in Kuwait. We have 
received a $10 million award from the Office of Foreign 
Disaster Assistance, part of AID, and have also allocated over 
$100,000 in private funds to support our agency's work in Iraq.
    Initially, Save the Children has provided assistance in Umm 
Qasr, cooking gas distributions to hospitals and clinics in Az 
Zubayr, and preschool education kits distributed in Safwan. On 
an ongoing basis now, we have established a main program office 
in Basra last week, and we now have a dozen expatriate staff 
based there.
    We have done initial assessments in Karbala and An Najaf, 
and we will begin setting up programs and offices in both of 
those gubernots next week. I have more detailed information in 
my written testimony on our programs there.
    Roadblocks and solutions to providing humanitarian 
assistance in Iraq. The primary obstacle to providing 
humanitarian assistance right now, as everybody else has said, 
is security--or insecurity. The lack of security has created an 
anarchic situation where citizens cannot access basic services 
such as education and health care.
    Our team in Baghdad says that parents are not letting their 
children attend schools because roving criminal gangs are 
kidnapping children from local neighborhoods. Consequently, 
schools are operating at 30 percent of normal capacity. People 
are also not visiting health clinics or returning to work 
because of the lack of order.
    Many ministry employees are still unable to go back to 
work, and ministries are closed. Employees often are stopped by 
U.S. military at the doors of the ministries because the 
military can't distinguish who are employees and who are 
looters.
    Further, as has been mentioned by everybody, including 
General Garner, government salaries must resume so that people 
can get back to work. These employees and the systems they run 
will ultimately be responsible for feeding, educating, and 
vaccinating the Iraqi people.
    Point two. The U.S. military must move quickly to establish 
a functioning police force that can restore order. Until basic 
order is restored, life-saving humanitarian assistance cannot 
be delivered with the speed and the quantity that is now 
needed. Many of our European allies have experienced police 
trainers who are skilled in providing policing and training 
local police forces at the same time. Kosovo provides a good 
example of this sort of policing support provided by NATO 
members.
    I think it's also important that the Department of Defense 
understands the very delicate cultural and political issues at 
play and the way in which our military performs in communities 
throughout Iraq. I have just heard an alarming report from one 
of my colleagues who yesterday met with senior Shiite clerics 
in Kerbala where he heard tremendous anger and concern about 
the way U.S. tanks had rolled up next to some of the holiest 
Shiite shrine and their fear that this could spontaneously 
erupt into some sort of a bloodbath.
    We need experienced leadership that knows how to deal with 
these sensitive cultural and political issues. The U.S. 
military has done a great job of winning the war, a job they 
have trained for. Now is the time to let people trained and 
experienced in rebuilding societies do the job that we have 
been trained to do.
    In Iraq, even before the outbreak of the war in March, 
women and children were facing very severe risks and unmet 
protection needs. These risks have now risen. Protection from 
sexual violence and physical harm is one of the six critical 
protection needs measured in our recent State of the World 
Mothers Report. According to yesterday's Washington Post, the 
dark accounts of kidnapping, rape, and sexual abuse of women 
and children are only likely to increase.
    Our Iraq team is also seeing many children harmed by 
unexploded ordinance. The clearing of exploded ordinances must 
be stepped up, and education of children on avoiding them also 
has to be stepped up.
    We are concerned that neither in the initial office of 
foreign disaster assistance awards that some of us at this 
table received nor the more recent requests for application 
from AID for community rehabilitation has women and child 
protection been listed as a prioritized project activity. U.S. 
Government and NGO's must prioritize the protection needs of 
women and children in the onset of our humanitarian response.
    Finally, Save the Children supports an expanded role for 
the United Nations for post-conflict reconstruction.
    Again, to summarize four key recommended solutions: The 
United States must move quickly to establish a functioning 
police force that can restore order, and we probably need 
European expertise to accomplish this.
    The differentiation between the roles of humanitarian 
workers and the military must be made clear.
    The U.S. Government and NGO's must prioritize the 
protection needs of women and children at the onset of our 
humanitarian response.
    And the role of the United Nations in post-conflict 
reconstruction must be expanded.
    Again, I thank you for the opportunity to testify before 
this committee; and I am happy to answer any questions.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Von Bernuth follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.060
    
    [GRAPHIC] [TIFF OMITTED] T9546.061
    
    [GRAPHIC] [TIFF OMITTED] T9546.062
    
    [GRAPHIC] [TIFF OMITTED] T9546.063
    
    [GRAPHIC] [TIFF OMITTED] T9546.064
    
    [GRAPHIC] [TIFF OMITTED] T9546.065
    
    [GRAPHIC] [TIFF OMITTED] T9546.066
    
    [GRAPHIC] [TIFF OMITTED] T9546.067
    
    Mr. Shays. Mr. Henry, and then we will get to the 
questions.
    Mr. Henry. Thank you, Mr. Chairman and members of the 
committee. Thank you for inviting CARE to participate in 
today's hearings. CARE International has been working 
continuously in central and southern Iraq since the 1991 Gulf 
war.
    As the last panelist, I have the challenge of saying 
something that hasn't already been said, and I'm not sure that 
I can do that. I'm pleased to say that what I will have to say 
coincides largely with what my colleagues had to say, despite 
the fact that we had no opportunity to coordinate our 
testimony.
    I will focus my testimony on the efforts of CARE and other 
humanitarian organizations to deliver assistance in Iraq today, 
the context in which we are operating, and our recommendations 
for priority action by the U.S. Government. I will also, like 
my colleagues, highlight critical lessons that need to be 
learned from our experience in Afghanistan.
    The central reality in Iraq today is that a vacuum has 
developed in a country that was for decades completely 
dominated by institutions that now no longer exist--the Iraqi 
Government led by Saddam Hussein, the Ba'ath party, and the 
Iraqi security and intelligence services. A swift military 
victory must now be followed by an equally effective response 
in filling this vacuum. Failing to do so could prove tragic for 
the Iraqi people and very damaging for the international 
credibility of the U.S. Government.
    What is required of the U.S. Government is obvious and 
straightforward: restore order, reestablish the central public 
services, and set in motion a process that will allow the Iraqi 
people to rebuild their country and establish a legitimate 
government.
    I say straightforward. And while it's straightforward, the 
magnitude of the challenges that we face in doing all that is 
required in Iraq is enormous, and we should not underestimate 
those challenges.
    So the question is, what are the priorities? General Garner 
in his testimony today did David Letterman one better and came 
up with 11 on his top list of things that need to be done in 
Iraq. We are a little bit more realistic, perhaps, or a little 
less ambitious, and we would focus on four priorities.
    The first I think we all absolutely agree--it was No. 1 on 
General Garner's list, all my colleagues have raised it--it is 
that immediate action must be taken to restore law and order.
    While the Iraqi people have no desire to return to the 
police state that was Iraq under Saddam Hussein, they are 
urgently calling for a restoration of security. Many Iraqis are 
still afraid to venture outside their homes, especially at 
night, and most parents are still unwilling to send their 
children back to school fearing for their safety.
    The lack of security is already having a very detrimental 
effect on the ability of CARE and other humanitarian 
organizations to do our work. Just since the end of the 
conflict, CARE's warehouse in Baghdad has been looted. Just 
this past weekend, two of our cars have been hijacked. Over the 
last few days, we have had to send international staff that we 
just recently deployed into Baghdad back to Amman for their own 
safety. So that's a measure of our sense of the security 
problems in Baghdad.
    You know, as one of my colleagues in Baghdad said today, 
what does it say about the situation when criminals can roam 
freely around Baghdad and humanitarian aid workers cannot? 
Unless law and order can be reestablished promptly, there is a 
risk of rapid downward spiral in the humanitarian situation in 
Iraq, and civilian relief agencies will be in no position to 
respond. Establishing security throughout Iraq must be priority 
No. 1 of the U.S. Government, and the assets required to 
accomplish this objective should be deployed immediately.
    The other three priorities on our list--and I will go 
through these very quickly because they have been touched on 
and actually they figure near the top of General Garner's list 
as well.
    First is the restoration of electricity, water supply, and 
waste treatment. These services are essential, not just because 
of their tangible benefits and impact on the health system but 
also for the positive signal they would send to the Iraqi 
people that life is returning to normal.
    Second--and here I would take issue with the testimony of 
our colleague from USAID--we fear that the health system in 
Iraq is in danger of complete collapse unless urgent action is 
taken. We all saw the footage of hospitals being looted. Anyone 
who has visited the hospitals in Iraq today know that they are 
struggling to cope with a very difficult situation. So we think 
urgent action needs to be taken to prevent a complete collapse 
of that system.
    Finally, we were pleased to hear General Garner report on 
progress being made in making emergency payments to civil 
servants. We think that's very important. We think that should 
be expanded immediately. It's important to remember that, in 
Iraq prior to the war, the Iraqi Government was by far the 
largest employer. So getting civil servants--getting money back 
in the pockets of civil servants not only allows them to do 
their important jobs and support their family, it helps get the 
Iraqi economy going again.
    Like my colleagues, I also believe that it's extremely 
important that we learn lessons from our recent experience in 
Afghanistan; and I fear for the most part that these lessons 
are not yet being very well learned. I would highlight briefly 
four lessons that I think are most critical.
    First is, following regime change, priority must be given 
to establish a nationwide law and order as a basis for economic 
reconstruction and political transformation. Regime change by 
definition creates a security vacuum. If it is not filled by 
international peacekeepers and new national security forces, it 
will be filled by less savory forces, including criminals, 
warlords, terrorists, and drug traffickers.
    One and a half years after the end of the war in 
Afghanistan to unseat the Taliban and defeat al Qaeda, a large 
portion of the country remains insecure. Despite repeated 
calls, the U.S. Government and the rest of the international 
community have failed to expand international peacekeepers 
beyond Kabul. Current U.S. Government strategy in Afghanistan, 
which includes the deployment of small provincial 
reconstruction teams and the very slow training of a new 
national army are simply, in our judgment, inadequate to the 
task; and we urge Congress to ensure that similar policy 
mistakes are not made in Iraq.
    Second, post-conflict reconstruction is a long and costly 
undertaking, requiring sustained commitment from the U.S. 
Government and the rest of the international community. There, 
I would only say that, although the U.S. Government has been 
very slow in the case of Afghanistan to get off the mark, there 
has been progress recently. Congress did--despite President 
Bush's failure to make a specific request for funding for 
Afghanistan in this year's budget, Congress has appropriated 
money and Congress has appropriated additional resources in the 
Iraq supplemental; and we congratulate you for doing that. The 
Iraq supplemental also already has $2\1/2\ billion in relief 
and reconstruction funding for Iraq. We view that as a good 
down payment on what will be a large-scale, multi-year effort.
    Third, establishing an international framework for managing 
post-conflict situations like Afghanistan and Iraq is in the 
best interest of those countries as well as the American 
taxpayers. The people of Iraq and the eventual new Government 
of Iraq will need all the help they can get--financial aid, 
technical assistance, trade and investment and debt relief--in 
rebuilding their country economically and politically. Creating 
a framework that enjoys the widest possible international 
support is, thus, vital. Like my colleagues, I believe that 
necessitates a major role for the United Nations.
    Finally, the last lesson for us in Afghanistan--and it's 
been alluded to not only by members of this panel but by 
Congressman Shays as well--is the issue of civilian leadership; 
and we urge transitioning as quickly as possible to full 
civilian leadership and control of relief and reconstruction in 
Iraq because we believe that will encourage the widest possible 
participation of U.S. and international humanitarian 
organizations in those efforts.
    The military's expertise is in the security area, and that 
should be their focus in Iraq. By contrast, most experience in 
relief and reconstruction resides in the civilian branches of 
the U.S. Government, the United Nations, and humanitarian NGO's 
like those testifying here today.
    Also, as we have learned the hard way in Afghanistan, it is 
vital that the military respect the need for humanitarian 
organizations to be seen as impartial and independent and that 
they do nothing to blur the distinction between military and 
humanitarian action. Organizations like CARE work in many very 
dangerous situations. The safety of our staff largely depend on 
their reputation in local communities as unbiased providers of 
humanitarian assistance, and I was reassured to hear the dialog 
between Congressman Shays and Mr. Garvelink on that point 
reaffirming the importance of impartiality.
    In conclusion, I would say this week's news from Baghdad is 
unsettling. The Saddam Hussein regime clearly is no more, but 
in its place a security vacuum has developed. Clearly, the team 
of U.S. officials tasked with governing Iraq in the interim is 
also in a state of flux. A high degree of insecurity coupled 
with confusion as to who is in control make Iraq a difficult 
and dangerous place for humanitarian organizations to work. We 
urge the President's new special envoy for Iraq to accord 
highest priority to the establishment of law and order 
throughout Iraq, as that is the foundation on which economic 
and political reconstruction must be built. If that is done, we 
can work to ensure that the basic needs of Iraq's 24 million 
people are met, and a humanitarian crisis can be avoided.
    Thank you.
    Mr. Shays. Thank you very much, Mr. Henry.
    [The prepared statement of Mr. Henry follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.068
    
    [GRAPHIC] [TIFF OMITTED] T9546.069
    
    [GRAPHIC] [TIFF OMITTED] T9546.070
    
    [GRAPHIC] [TIFF OMITTED] T9546.071
    
    [GRAPHIC] [TIFF OMITTED] T9546.072
    
    Mr. Shays. We have heard four excellent statements that's 
constituted over 40 minutes, but there will be questions. But 
it's been very, very helpful; and it's been a very wonderful 
panel and statements.
    Mr. Janklow, Governor, you are on.
    Mr. Janklow. Thank you very much, Mr. Chairman.
    Mr. Biddle, I couldn't help, as I listened to you and read 
your testimony, pick up what I thought was somewhat of a 
difference between you and the other three panelists, 
especially with respect to the--if I can call it--the primacy 
of getting the United Nations involved as opposed to having the 
United Nations involved. Do you understand the distinction?
    And I'm just wondering did I pick up something incorrectly, 
or do you feel that strongly about the United Nations?
    Mr. Biddle. No. I think it's a question of clarity in terms 
of the role. Our previous panel, Mr. Greene referenced the fact 
that the U.N. agencies humanitarian and--the humanitarian arms 
of the United Nations such as the World Food Program and WHO 
and others are beginning to return, but I think it's important 
as well that the coalition make clear that they would welcome 
that in a more specific fashion so there's an understanding of 
the coordinating role in providing relief which will help to 
facilitate an understanding at the community level that this is 
a coordinated international impartial process to rebuild and 
both address acute needs, as well as to rebuild the 
infrastructure and the society.
    Mr. Janklow. Help me, if you would, sir, for a second. What 
I don't understand is that where you have--let's just say that 
your organizations directly deal with the people and the U.N. 
is not there, and I'm not suggesting that not be the case at 
all, but do they really care who gives them or provides for 
them textbooks, gets the electricity turned on, gets the water 
functioning, gets the garbage hauled away, brings them the 
security and assists them in getting food for their families? 
Does it really make that big a difference to people?
    Mr. Biddle. I think it does from the perspective of 
civilian interaction.
    Mr. Janklow. Where else has that been the case around the 
world, an example of that?
    Mr. Biddle. Well, I think if you take a look at many 
different crises in the world community, you'll find that the 
both--two points that I think are critical here.
    One is the role--the coordinating role that the U.N. plays 
in working both the local NGO's international organizations----
    Mr. Janklow. Excuse me, sir. I want to know if people have 
reacted negatively to those people that are providing them 
assistance with respect to food, clothing, education, medical 
care and housing when it's provided by a government as opposed 
to--or not--or NGO's as opposed to the U.N.
    Mr. Biddle. I think it depends on the political context in 
which it occurs, and I think what we're trying to do in 
supporting a clear role for the U.N. in leading and 
coordinating humanitarian relief here is that we don't give 
succor or support to those parts of a given society--it can be 
any group, and obviously there are a number of factual forces 
at work in Iraq--that could perhaps----
    Mr. Janklow. I'm sorry, sir. What I'm asking--I hate to 
interrupt, but I'm trying to be very focused. Can you cite to 
me anything historically or anecdotally where it has been a 
problem where NGO's or a government have provided elsewhere in 
the world food, clothing, education, health or housing and it's 
been perceived as negative by the recipients?
    Mr. Biddle. I mean, I'd like to think about that for a 
minute to come up with a specific example. I think the issue 
that we're looking at, though, is the overarching----
    Mr. Janklow. I understand the issue. I understand the 
issue, sir. I'm just wondering, because I sense that there was 
a--maybe what I perceived to an overreliance on the U.N. as 
posed--and I'm not knocking the U.N. I think they do marvelous 
work. There was a lady who was in the Somalian group that was 
slaughtered, the charitable workers, the Filipino-American 
group that was slaughtered as missionary nurses, and so I have 
some appreciation for what your various organizations do in 
various places around the world.
    But, again, let me ask you, if I can, Mr. Henry, how strong 
do you think it has to be the United Nations, as opposed to 
agencies like yours and all the others from our country and 
other countries--clearly we don't have the only NGO's in the 
world. There are a lot of them.
    Mr. Henry. We see the primary role of the U.N. in playing 
that coordination and facilitation role, and also very 
importantly, in mobilizing resources. Even with the U.N. 
programs, the NGO's do most of the heavy lifting. OK? But in 
our estimation, if the U.S. Government wants to mobilize the 
widest possible participation of the international community in 
providing peacekeepers, in providing funding for 
reconstruction, then the U.N. is the vehicle that will get that 
broad support. So, I mean, setting aside all of the 
philosophical reasons from a purely practical point of view, I 
think that's the best reason to involve the United Nations.
    Mr. Janklow. What is it--if I can ask you this, recognizing 
that--it's 3 weeks since, basically, the war has ended, and but 
for a few individuals, who may have known better, I think most 
of us think it really went very quickly and with an incredibly 
small amount of damage to the civilian infrastructure given the 
enormity of taking over a whole country that's one of the most 
armed in the whole world, you know. And I hear about, like, 
people being upset that the tanks are parked next to a mosque, 
but they had to be terribly upset when they had Fedayeen, 
several hundred of them, in Baghdad in the mosque shooting at 
the soldiers that were coming through the community, and the 
arms that we found in the schools can't have made any mother 
feel well about sending her children to school, given the laws 
that came down and what we found behind those walls in a lot of 
the school systems.
    So I guess what I'm asking is, do you folks think we were 
that unprepared for--what have your organizations been doing to 
get ready for this? Is it just the government that was 
unprepared? Let me ask you, Mr. Welling, what did you do during 
the months that you thought we were leading up to this?
    Mr. Welling. Well, I think everyone was working in their 
own way to prepare, in our own case----
    Mr. Janklow. When did you start?
    Mr. Welling. We started in February, and as I think I 
mentioned in my written testimony by----
    Mr. Janklow. Prepositioning----
    Mr. Welling. In March, we prepositioned a substantial 
volume of supplies.
    I think there's a point here to be made about the volume of 
planning versus the coordination and the quality of planning. I 
don't think there's any debate about the fact that each of the 
organizations and each of the agencies that had a potential 
role in what is now the postwar environment spending a lot of 
time planning.
    When a division of labor becomes fragmentation, redundancy, 
I think, is an important question, and so one of our 
observations would be that absent the central point of control 
that we talked about, that there was a lot of planning going 
on, that it wasn't necessarily going on in a consistent way, 
and it wasn't necessarily being done in a way that maximized 
the potential contributions of each of the organizations.
    Mr. Janklow. Mr. Biddle, when did your organization start 
planning for the fact that you may end up in Iraq providing 
substantial assistance?
    Mr. Biddle. We began preliminary discussions in 
headquarters in July or August as we saw the possibility of----
    Mr. Janklow. And you, Mr. Von Bernuth, your organization?
    Mr. Von Bernuth. We began in the early autumn, and we did a 
planning workshop in Jordan in December to prepare staff for--
--
    Mr. Janklow. And you, Mr. Henry.
    Mr. Henry. Similar to Save the Children, in the fall of 
last year.
    Mr. Janklow. And I realized, you know, the U.N. assisting 
coordination, but is there ever a point in time when all of 
your organizations or some of them and others sit down with 
each other planning for going into it? I assume you're all 
basically in sort of the same--you at least have a lot of 
overlapping in terms of what you do. Some of you are faith-
based. Some of you are not, but I think all your hearts are in 
about the same place when it comes to what it is that you do. 
Do you ever sit down and plan with each other over who is going 
to do what?
    Mr. Henry. There has been extensive coordination among our 
agencies and many others.
    Mr. Janklow. Prior--specifically with respect to Iraq.
    Mr. Henry. Yes.
    Mr. Biddle. As a matter of fact, USAID provided a $900,000 
grant to what was termed the Joint NGO Emergency Preparedness 
Initiative which was set up in Arman, Jordan and included CARE, 
Save the Children----
    Mr. Janklow. When was that done, sir?
    Mr. Biddle. I think that was initiated in the late winter. 
I think it was probably March--February, March.
    Mr. Janklow. Of this year?
    Mr. Biddle. Yes.
    Mr. Janklow. What I'm trying to get at is how much planning 
did our government do preparing for the eventuality they may 
have to be providing substantial humanitarian assistance on the 
ground in Iraq at some point?
    Mr. Biddle. I think if I can respond to that, I think one 
of the issues was a lot of the planning was classified. So it 
was difficult for us to know exactly what they had in mind. I 
think everyone had anticipated a larger displacement crisis, 
and we're thankful that there wasn't one.
    At the same time, there were some impediments to the kind 
of planning that humanitarian NGO's traditionally do, which are 
on the ground assessments and prepositioning of supplies, as 
well as building relationships with local communities, and 
those were hindered by the presence of U.S. sanctions, the OFAC 
restrictions on our being there.
    Mr. Janklow. Sir, I noticed in your oral testimony you 
talked about the fact of cholera having appeared and the 
concern of that. And you, Mr. Von Bernuth, in your testimony I 
believe it is, I read what has been endemic in Iraq, in rural 
areas in Iraq since 1991. So it doesn't appear to be--it may be 
new in some areas, but it's not new on the scene.
    What I'm wondering is, that with respect to the assistance 
that has to be provided, what's the biggest surprise that you 
folks have encountered? I mean, I can't believe that y'all 
didn't think security might be a problem. Are any of you 
shocked that security is a problem 3 weeks after the occupation 
of a country?
    Mr. Henry. No. The only thing that I would say surprised me 
was the looting, specifically of hospitals and facilities of 
that nature. The more general looting wasn't a surprise, but 
that it would extend to hospitals surprised us, and that is--
that definitely complicated matters.
    Mr. Janklow. Mr. Von Bernuth, what was your biggest 
surprise for your organization?
    Mr. Von Bernuth. I think it has been the slowness to get 
access to get into places, even in the southern part of the 
country that had been bypassed or liberated early on in the war 
and then the difficulty of developing local staff. Almost all 
of us depend tremendously on local staff in all the countries 
we work in to succeed, and with the exception of CARE, which 
had a previous basis in the country, the rest of us didn't, and 
therefore, that has been a surprise, how difficult it's been.
    Mr. Janklow. Mr. Biddle.
    Mr. Biddle. I think that the issues we had to face were in 
our own preparations for the responding to the humanitarian 
needs and that we couldn't get access earlier, we couldn't 
develop local partnerships. And now, of course, we can't move 
as freely in the country as we'd like. So those----
    Mr. Janklow. You and Congress, huh.
    Mr. Biddle. Well, it's field travel. Obviously we'd like to 
be able to get into Baghdad a little more effectively. CARE has 
had a long-standing presence there, but our staff had trouble 
getting from our northern locations down there because of 
security concerns.
    Mr. Janklow. And very briefly you, Mr. Welling.
    Mr. Welling. Our biggest surprise was the extent to which 
for all this planning the questions of access were not better 
thought out and more transparent.
    And I would also add that with respect to the preexisting 
conditions that we have found when we got there, the fact that 
the conditions are preexisting doesn't diminish its importance 
in terms of providing humanitarian assistance.
    So that would be a relatively low standard for compliance 
to restore things to preexisting conditions.
    Mr. Janklow. Mr. Chairman, can I ask one quick question, 
please.
    Mr. Shays. Ask it.
    Mr. Janklow. And I'll be brief. In your planning up to this 
point, did you ever--prior to the time the war was over, was 
there ever a time when your NGO's sat down, literally, with our 
military talking about how we would proceed when the war was 
successful, because I don't think anybody ever doubted the 
outcome. So given that fact, was there ever a planning session 
or coordination between you folks and the military as to how 
you would proceed once the war was over?
    Mr. Biddle. I mean, I can answer. I know there were many 
discussions in Washington through the interaction consortium of 
humanitarian agencies to meet with officials at DOD to discuss 
what our views of the situation were at that time and what they 
might become as a result of the war.
    One of the issues I'd just like to go back to is the 
security situation. Our vice president for government relations 
here in Washington issued a paper in January and then testified 
before the Senate Foreign Relations which on this issue going 
through the various threats to security in Iraq as a result of 
a war there and the fact that we would be in a position to be 
responsible under the Geneva conventions as the occupying power 
for law and order of protection of civilians. That paper 
Protecting Civilians From the Security Vacuum, I'd like to make 
available for the record. I think it would be very interesting 
for you all to see, and we did share that widely with the U.S. 
Government at the time when it was issued in January and also 
presented at the hearing in May--excuse me, in March.
    Mr. Henry. Just on the subject of exchange of information 
with the military----
    Mr. Shays. Without objection, we'll make that a part of the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9546.073
    
    [GRAPHIC] [TIFF OMITTED] T9546.074
    
    [GRAPHIC] [TIFF OMITTED] T9546.075
    
    [GRAPHIC] [TIFF OMITTED] T9546.076
    
    [GRAPHIC] [TIFF OMITTED] T9546.077
    
    [GRAPHIC] [TIFF OMITTED] T9546.078
    
    [GRAPHIC] [TIFF OMITTED] T9546.079
    
    Mr. Henry. I would just like to say that there were any 
number of meetings that NGO's participated in with 
representatives of the Pentagon. On the whole, as my colleagues 
have said, our ability to get information was hampered by the 
level of secrecy and confidentiality of the planning within the 
U.S. Government. Much we didn't find out until very late in the 
game, and in general with the Pentagon, their idea of 
information exchange was, you know, NGO's, give us all the 
information you have. Thank you. And, you know, we'll call you 
if we have anything to share with you at a later date.
    Mr. Shays. I'm loving this panel, and I have so many 
questions I'd love to ask, but I'd love to have you tell me if 
you agree or not or want to elaborate or whatever with Bill 
Frelick's testimony that we put into the record, who is the 
humanitarian assistance--this is from Amnesty International. He 
is the Director of Refugee Program. This is the paragraph. If 
you'll listen to this paragraph and tell me if you agree with 
it, ``for security reasons, U.N. agencies themselves were not 
able to establish offices in Iraq during the first critical 
weeks. This created a circumstance in which the NGO's inside 
Iraq could not establish connections with U.N. agencies but 
only with the DART teams or ORHA, making their ties to the 
occupying power stronger. (The U.N. Humanitarian Coordinator 
for Iraq, Romiro Lopes da Silva, moved into Baghdad on the 5th 
of May.) NGO's will be watching closely how the Kuwait-based 
Humanitarian Operations Center, run by U.S. military and 
civilian forces, will be affected by the establishment of the 
U.N. Coordinator for Humanitarian Assistance inside Iraq. If 
there are two competing centers of humanitarian coordination 
with significantly different objectives and principles, each 
with its own resources to bring to bear, humanitarian 
assistance could become paralyzed.''
    Let me just tell you how I comment, and then I want to go 
to you, Mr. Welling. My sense was kind of the more the merrier, 
and I am missing something here that I don't understand about 
the system? And I gather that the U.N. somehow has--over time 
has become the structure in which NGO's kind of fit in.
    So Mr. Welling, do you have a comment on what I read?
    Mr. Welling. I do. I think perhaps so we have a 
clarification, I certainly agree from a capacity standpoint 
that your observation of the more the merrier in terms of the 
aggregate resources that could be brought to bear is a 
desirable thing.
    Clearly, it creates coordination problems, and I think one 
of the issues that we're all groping here with is the 
fragmentation of the parties that had responsibility or thought 
that they had responsibility for a piece of the activities. And 
uncertainty with respect to who had responsibility for the 
totality of the activities, and if it was ORHA, it wasn't clear 
that it was ORHA, and if it was the United Nations, it wasn't 
clear that it was the United Nations. And to our way of 
thinking, in fact, that uncertainty persists today.
    So I would say capacity maximization is an important thing 
pursuant to an intelligent assessment and the coordination of 
capacity. So we don't see, for example, some of the things we 
saw in Kosovo, where tons and tons of medical supplies had to 
be destroyed because they were redundant or inappropriate.
    Mr. Shays. OK. Mr. Biddle.
    Mr. Biddle. Yes. I think they're--I've had conversations 
with officials at the U.N. who were confused as to what role 
they should be playing. There's the Offices of Coordination of 
Humanitarian Affairs at the United Nations, which tends to try 
and coordinate both the U.N. agencies and bring the NGO's in in 
cooperation with donors, and their role has been somewhat 
confused at the field level, both in terms of how NGO's 
interact with them, as well as interaction with other bodies 
related to the U.S. Government, if it is ORHA or others.
    I have seen it in the draft resolution that was at least 
put forward in the press to the U.N. There was attempt to begin 
to clarify the role of the U.N. in that role, and I think 
that's an important thing that needs to be pushed from the U.S. 
perspective to make sure that there is an understanding of what 
they will be doing and how they will interface both with the 
United States and the coalition efforts to reconstruct and 
rehabilitate----
    Mr. Shays. And would you care to say how you think that 
should be, that----
    Mr. Biddle. We've been on the record, and we've written to 
President Bush saying that they should be the lead coordinating 
body in bringing both humanitarian and longer-term 
reconstruction.
    Mr. Shays. Which is consistent with your testimony. Right?
    Mr. Von Bernuth.
    Mr. Von Bernuth. A couple comments. One, yes, the U.N. was 
late getting into the country, but on the other hand, there had 
been an active dialog in Larnaca and Jordan and Kuwait between 
the U.N. agencies and NGO's, so it wasn't that there wasn't a 
lot of discussion going on.
    Second, we almost always do have a problem in emergencies 
with multiplicity in terms of direction. Usually, it's a donor 
working group on the one hand and a U.N. group on the other 
hand. But lip service, at least, is usually given to the U.N. 
as taking primacy in terms of that coordinating role.
    Third, in practical terms, if you'll look, for instance, at 
education, UNICEF can play a very constructive role, for 
instance, in bringing together multiple donors who will support 
a UNICEF-mandated education reform package. Multiple NGO's who 
regularly work with UNICEF and government officials within Iraq 
who will feel comfortable working with a U.N. agency in a way 
that a bilateral donor or government is not going to be able to 
do.
    So there really is a special role that the U.N. can play, 
for instance, in organizing the education sector or organizing 
the health sector, that a unilateral donor will not be able to 
do.
    Mr. Shays. Thank you. Mr. Henry.
    Mr. Henry. Oh, yes. CARE has made an effort from the 
beginning to coordinate very actively with the United Nations, 
and despite their lateness in arriving and in Baghdad, we have 
been coordinating with them closely, primarily in Aman. If 
we're critical of anything, it was their decision to originally 
base their operations in Larnaca, Cypress, which was too far 
from the scene when most NGO's were actually either in Jordan 
or in Kuwait.
    In terms of the role of the United Nations, I think, you 
know, what it comes down to at the end of the day are two 
things. One, who sets the priorities. Right? The more the 
merrier, yes, but at the end of the day in something like this, 
there have to be priorities, someone has to set them, and, you 
know, you do have the potential for two competing frameworks, 
right now the ORHA framework and the U.N. framework, and that 
is potentially problematic.
    And second who is, will----
    Mr. Shays. And they differ?
    Mr. Henry. Sure. I mean, one is a U.S. Government Pentagon-
managed structure, and the other one is----
    Mr. Shays. And those structures are different, but do their 
goals differ and their objectives and so on differ?
    Mr. Henry. Well, I think both sides would probably--you 
know, ask them, but I think both the Pentagon and the United 
Nations would probably say that, you know, once you get beyond 
the very high-level goal of rebuilding, you know, Iraq, they 
would disagree on a lot of things.
    Mr. Shays. Would you all agree with that really quickly? 
Mr. Von Bernuth, you've said----
    Mr. Von Bernuth. I'd agree.
    Mr. Shays. Mr. Biddle.
    Mr. Biddle. I'd agree, and there are going to be micro and 
macro issues. There's the large-scale issues, and then there's 
going to be what a U.N. agency or body might see at the 
community level versus what another agency, bilateral or in 
this case U.S. Government agency might see.
    Mr. Shays. Mr. Welling.
    Mr. Welling. I don't have anything to add.
    Mr. Shays. Mr. Henry, I interrupted you.
    Mr. Henry. The final thing is what's very important in 
these kind of complex emergencies when you have so many actors 
is there has to be a form and there has to be a framework 
within which we all interact, and the question is going to be 
who is going to provide and create that framework. So, you 
know, at the end of the day NGO's will do a lot of the work, 
you know, with funding from the U.N. and from the U.S. 
Government and other donors, but the existence of that 
framework in that form is vital for our efforts in making sure 
that there aren't major gaps on the one hand or big overlap and 
duplication.
    Mr. Shays. Yes. I came with a bias that maybe is so 
offbase, that you need to correct me. I came with a bias that 
the U.N. takes so long to make a decision, that basically you 
just can't wait that long. So I came with this decision that if 
the U.S. military did it, it might be 3 years, and if the U.N. 
did it, it might be 7 or more. But what I'm getting a sense 
from your testimony is that they go into automatic pilot. 
There's not a lot of decisions that go back to the U.N. that 
take a long time to be decided. Is that correct? I don't want 
to put words in your mouth, but disavow me of my misconception 
here or confirm it.
    Mr. Welling. Well, I don't think it's necessarily a 
question of timeframe. I think it's a question of experience 
and expertise. I think that the point that's been made before 
about expertise and division of labor, I think, is a valid one.
    Mr. Shays. And the U.N. has it then?
    Mr. Welling. The U.N. has it and the expertise, and I also 
think an important point from a U.S. taxpayers standpoint and 
from an aggregate capacity standpoint, it's clear the United 
Nations has access to donors on a basis that no unilateral 
organization is going to have. The U.S. Government will not 
have the same access to donor resources that the United Nations 
would have on some of these programs in education, health care 
and infrastructure rehabilitation.
    Mr. Shays. Mr. Biddle, anything to add to what?
    Mr. Biddle. I would echo that. I think the burden-sharing 
aspect is critical because donor governments are going to 
participate if they view it as an international effort as 
opposed to an effort by one, two or a small group of 
governments and the expertise factor is a given in that. 
There's no question that the U.N. is an international body, and 
sometimes things will take longer in working through it, but 
from the perspective also of the current situation in Iraq, the 
military and the other efforts of the U.S. presence in the 
field is going to need to be directed, especially at this time, 
to providing a secure environment. So you're also dealing with 
capacity. You want to allow others to come in and share in the 
relief and rehabilitation efforts, and the U.N. is the best 
vehicle to ensure an international cooperative effort.
    Mr. Shays. Mr. Von Bernuth.
    Mr. Von Bernuth. The U.N. in the aggregate, certainly can 
be slow and cumbersome and many times has been, but the 
agencies that we're talking about, UNHCR, World Food Program, 
UNICEF have each of them a particular mandate, a particular set 
of interventions that they've worked on and a number of other 
crises like this. They've worked in the Balkans. They've worked 
in Afghanistan, etc., and the people that they're bringing in 
to work on the ground are people that many of us have worked 
with in other crises, and I think they can be reasonably 
efficacious, as well as bringing in a far broader spectrum of 
supporters.
    Mr. Shays. Thank you. Mr. Henry.
    Mr. Henry. I think the U.N. is imperfect, as are all 
institutions created by man, but they have a role to play, and 
if they put some of their best people, you know, in the field, 
in Iraq, they can play a very important role.
    Mr. Shays. Well, I'm struck by the fact that--Mr. Welling, 
you were the most forceful on this, about the need to designate 
a central authority, and you talked about turf battles and so 
on. And before I go to Mrs. Maloney who has joined us, can I 
envision a U.N. being a major participant without the United 
States losing its ability to kind of take some definitive 
action in terms of humanitarian efforts? In other words, will 
the United States have to give up as they invite the U.N. in?
    Mr. Welling. No. I don't see it as a zero-sum game. In 
other words, I don't think there's any sense in which the 
United States would have to compromise its interests. You made 
the point several times during these hearings that with respect 
to goals, broad-based objectives, the objectives of the 
humanitarian community and the objectives of the American 
people and the British people have the same objectives. I think 
this is a question now of effectiveness and efficiency. The war 
has been won. There's a set of tasks that need to be 
accomplished, and we should be about identifying the parties 
who are the most competent to accomplish the tasks on the 
table.
    Mr. Shays. Anybody have something to add to that before I 
go to Mrs. Maloney?
    Well, I'm going to want another shorter round, but Mrs. 
Maloney, you have the floor. And thank you for joining us.
    Mrs. Maloney. Thank you very much, and I--you all represent 
extraordinarily important organizations that have really 
responded to world crises in the past. That I believe our 
government is working very strongly with the United Nations. In 
fact, we are funding them. USAID has provided $1.2 million to 
the United Nations office for the coordination of humanitarian 
assistance to support several initiatives in Iraq, including 
the Humanitarian Information Center. So we are working with 
them.
    I'd like to ask each of you, to whom do you, as a 
nongovernmental organization involved in assistance programs in 
Iraq, report? Who do you report to? Do you report to the 
Humanitarian Information Center? Do you report to the U.S. 
Government, USAID or to your board of directors?
    Mr. Henry.
    Mr. Henry. Well, yes. I mean, first and foremost as a 
nongovernmental organization, we are accountable to our board 
of directors and our mandate and mission as an organization.
    Now, of course working in a context like Iraq, we're 
subject to whoever, you know, is the power that be in any given 
context, ma'am.
    Mrs. Maloney. So who do you report to?
    Mr. Henry. Well, we don't report to anyone, but, for 
instance, we have accepted funding from the Office of Foreign 
Disaster Assistance, and one of the issues that we have worked 
to clarify is we've said, look, in that context, we will report 
to the Disaster Assistance response team, which is part of OFDA 
and that we do not want to amend, will not accept reporting 
directly to the military.
    So as regards U.S. Government funding, we are reporting to 
and accountable to the Office of Foreign Disaster Assistance, 
which is a part of AID and under the Department of State.
    Mrs. Maloney. Well, are you reporting to the United Nations 
Humanitarian Information Center to let them know what you're 
doing so that they can coordinate? Because now they are funded 
by our government to help coordinate. I'm wondering have you 
interacted with them?
    Mr. Henry. We are actively interacting with all of the 
specialized agencies of the U.N. We're working particularly 
closely with UNICEF and the World Food Program, because our 
programs focus on water supply, sanitation, food, health. So 
that's the main--the main players really in Iraq for the United 
Nations today are the specialized agencies such as UNHCR, the 
World Food Program, UNICEF, and they are the people we're 
working with.
    The coordination folks had literally just arrived in 
Baghdad in the last week or two and really haven't fully gotten 
up to speed.
    Mrs. Maloney. Although you have been supported by USAID in 
the past, did your funding increase dramatically recently 
because of Iraq to respond to this problem?
    Mr. Henry. Not dramatically, but we have received 
assistance. We have received CARE, a grant of $4 million which 
we understand could go up to as much as $10 million for 
immediate relief and reconstruction activities including in the 
water supply, sanitation and health sectors.
    Mrs. Maloney. Mr. Von Bernuth.
    Mr. Von Bernuth. We've received a mix of funding. We have, 
right now, received funding from Norway, the British 
Government, USAID through an instrument similar to the one that 
Mr. Henry just described, the World Food Program and private 
resources.
    In regard to the utilization of each of those moneys, we 
have a reporting obligation to the donor. Overall, in terms of 
overall program, I would not say that we report to any of them. 
I would say as a member of the community, we have an 
information-sharing responsibility, both with ORHA in Kuwait 
and when it gets underway, with the UNOCHA coordinating 
mechanism in Baghdad. But it doesn't constitute a report to; it 
constitutes a share information with and collaborate with.
    Mrs. Maloney. Well, as one who works for our children, Save 
the Children--and I think they're probably the most vulnerable. 
I've read about children being kidnapped, being blown up by 
mines, just terrible, parents not wanting their children to go 
to school because of the turmoil and the fact that they do not 
believe security is there, and when the U.S. Government is 
withdrawing troops, who do you call when you have a security 
problem? Who do you call when you find out that there's such 
turmoil in a certain area, that children cannot go out in a 
street? Is there a phone number you call? Do you call the 
military? Who do you call for security for the children?
    Mr. Von Bernuth. That is a very good question. We have all 
of us today in our testimony basically said that as the 
occupying power in Iraq today, we would call on the U.S. 
Government to ensure that adequate police services are in 
place, security is in place, so that people don't need to worry 
about leaving their homes and don't need to worry about sending 
their children to schools.
    Mrs. Maloney. But there is turmoil. I have numbers I could 
call in New York when there's a security problem.
    Mr. Henry. There is no 911 in Baghdad today.
    Mrs. Maloney. There is no 911, there is no police 
department, there is no place you can call and say, there's 
turmoil in this particular school.
    Mr. Biddle. And that's one of the reasons that children 
aren't going to school and women are staying at home and 
allowing men to go out and do the shopping. Especially in 
Baghdad, there's a real fear on the security level.
    Mrs. Maloney. And I support the United Nations for many, 
many reasons, one of which is burden sharing, and I just came 
from a hearing on Financial Services where we're talking about 
the deficit, we're talking about the trade deficit, the growing 
deficit and the economic challenges that we have in our own 
country, and I'd like to know, what is your USAID commitment, 
and did it come--grow up or grow because of Iraq, Mr. Von 
Bernuth?
    Mr. Von Bernuth. The Iraq instrument that we received 
represents $10 million, and it's a short-term instrument all to 
be used within this given fiscal year. About 50 percent of our 
total funding comes from the U.S. Government, mostly from AID, 
and that represents about $85, $90 million a year from the U.S. 
Government. So this represents a tenth of it for this fiscal 
year.
    Mrs. Maloney. And how long do you think you'll be in Iraq? 
Is there any timetable that's been given to you? This contract 
you said was for a year, but are they saying it's going to be a 
continuing contract? Do you have any sense of how long you'll 
be in Iraq?
    Mr. Von Bernuth. The current U.S. contract we have is for 6 
months actually, not for a year, and we've been offered the 
opportunity to bid another contract which would be for, I 
believe, a year, possibly extendable to a year and a half. So 
the U.S. Government, in terms of its funding, is looking at 
fairly short-term instruments right now. I think we strongly 
believe that the commitment in terms of work in Iraq has to be 
in a much more multi-year basis. Rebuilding a society isn't 
going to take place in 6 months or a year. So we would hope 
that we would be able to work with the Iraqi people for a 
number of years.
    I gave the example earlier of Afghanistan, where we've been 
working in Afghanistan since 1989, and we stayed through the 
Taliban period. And we're still working there. We've seen U.S. 
Government funding instruments wax and wane during that period 
several times.
    Mrs. Maloney. Well, we're hoping that other citizens of the 
world community will donate not only to the United Nations and 
donate to Iraq, but donate to organizations such as the one 
that you represent. Are foreign governments coming up and 
contributing to the effort, or is our country carrying the 
whole burden?
    Mr. Henry. Well, CARE, I can say, is receiving funding from 
the Australian Government, the UK Government, the European 
Government, the Norwegians, the Canadians and the United 
States, and we are also working with both UNICEF and the World 
Food Program. So there is an international effort.
    Mrs. Maloney. What about Mr. Von Bernuth with the Save the 
Children?
    Mr. Von Bernuth. I mentioned earlier that we've received 
funding support so far from Norway, from DFID, which is the 
British Government equivalent of AID, from the World Food 
Program, and we currently have proposals funding with Finland 
and Canada.
    Mrs. Maloney. That's terrific, and I'd like to ask the same 
questions if I could from Mr. Biddle and Mr. Welling. What is 
the U.S. commitment? Has it grown larger? How long is the 
commitment for you to be in Iraq? And are other nations coming 
to help you? And also going back to the Humanitarian 
Information Center, it seems if we're funding someone to 
somewhat coordinate information on humanitarian efforts with 
the United Nations, it seems that like all of you should be, 
sort of, in there sharing information so that you--there's a 
central place--you said we need a central place. Possibly this 
could serve as a central place to share this information.
    Mr. Biddle. We're actively in touch and coordinating with 
the UNOCHA team on the ground, as well as with other NGO's in 
locations that we operate in and with any other bodies that are 
working, including, obviously, local communities, which is the 
critical group that we need to work with to ensure that we are 
both reaching the most vulnerable populations and building in a 
mechanism to sustain our work past our involvement.
    We also received a cooperative agreement to respond to 
humanitarian needs in Iraq from the U.S. Agency for 
International Development's Office of Foreign Disaster 
Assistance. In our case it was a $5 million cooperative 
agreement for 6 months. We have not applied for further funding 
at this stage. We're going to watch to see how the situation 
evolves, whether our services will be needed over the long-term 
in Iraq.
    There have been large, I think, requests for proposals put 
out by USAID for longer-term work, which we declined to apply 
for at the time. And in terms of European or international 
support for our work, I just came back from a visit to some of 
the European capitals and some of the funding agencies in 
Europe, and a lot of the questions I got were specifically 
wanting to know how we were going to operate in an impartial 
fashion, were we being directed by the U.S. military, and what 
assurances could we give to some of our traditional donors 
that, in fact, we were maintaining our own standards and our 
own commitment to our principles of being both impartial and 
responsible to ourselves in assessing and delivering services 
on a needed basis.
    And I should come back to Congressman Janklow's question 
specifically. I was trying to think. Nothing came into my mind 
at the time of your question, but in the case of Colombia, 
we've had some local partners in Colombia that have refused to 
work with us if we had U.S. Government funding, not because 
they were opposed necessarily to U.S. policy or the money 
itself, but because it actually endangered their operations. 
They could be seen as a potential target from a particular 
group, be it a paramilitary force or one of the guerilla forces 
for whatever view that funding may--how it may be perceived at 
the local level.
    So it's a question of perception sometimes as much as 
anything, and one of the reasons I raised the U.N. to begin 
with is the perceptions in some communities in Iraq that they 
may not want to work with the United States because it's 
directing the assistance with a particular goal in mind that 
may be not necessarily accurate, but unfortunately can add to 
confusion as to what the objectives of an assistance program 
are.
    Mrs. Maloney. Well, all of you represent in many ways truly 
international organizations. My time is up and the chairman is 
going to continue, but I did want to let you know, Mr. Biddle, 
that we had a fundraiser for your organization yesterday in the 
district that I represent. So I hope that will be helpful--more 
helpful in your efforts, and I congratulate all of you, and 
we're all praying for you.
    Mr. Shays. You've got a nice district.
    Governor Janklow.
    Mr. Janklow. Thank you very much. If I could, I just really 
have a couple of questions. Y'all heard the testimony of 
General Garner, his kind of speech. Which one of his 11 points 
were--and I realize maybe you didn't write them all out, but to 
the extent you can recall, did any of them trigger your head? I 
guess they're up on the board there. Like, geez--is he too 
optimistic, and if so, with respect to which ones?
    Go ahead, Mr. Henry.
    Mr. Henry. Well, I think reestablishing town councils and 
provincial governments that are seen to have genuine legitimacy 
in the eyes of their communities in that kind of timeframe 
would be very difficult. You could put in place very temporary 
kind of structures, but I think we need to recognize that those 
kind of political processes will take much more time than 
something like purchasing the crop or getting the refineries 
moving so that you can buy gasoline in Baghdad.
    Mr. Janklow. Mr. Von Bernuth.
    Mr. Von Bernuth. I noted that on three points from his 
list, that I thought were probably not as feasible as some of 
the others, of which installed town councils was one. The 
second one was the training of the police, getting a police 
force actually to be credible and operational by June 15, I 
think it was. And the third, deeply related to the second, was 
establishing security.
    Mr. Janklow. Mr. Biddle.
    Mr. Biddle. I would echo what Rudy had to say, that 
security issue is going to be the most challenging. If we look 
at Afghanistan, the bombing ended there in December 2001 and 
it's still a very unsecure environment. These are very 
different countries obviously, different stages of development, 
but the fact is, postconflict settings are extremely difficult 
to sometimes assess where the threats may--where they may come 
from and what the circumstances may be. And the issue of 
policing and creating basic judicial procedures and law and 
order throughout the country is going to be very difficult. And 
to have that in hand within the next 45 days would seem to me 
to be a very great task.
    Mr. Janklow. Mr. Welling.
    Mr. Welling. Yes. To be fair to General Garner, I'm not 
sure whether he meant these to be in priority order, but if he 
did, we would probably have all different opinions of----
    Mr. Janklow. I'm just wondering which ones you think aren't 
feasible to get done.
    Mr. Welling. I don't have anything to add to what my 
colleagues have said about feasibility. I would say our 
perspective, we were surprised that a higher priority and more 
discussion wasn't given to dealing with the emergency health 
care needs of the already fragile or endangered populations, 
cholera being a subset of all that, but there's clearly a much 
wider range of things that require immediate assistance from a 
health care standpoint.
    Mr. Janklow. Look, if I could to all of you at the risk of 
being accused of being insensitive, which, you know, I don't 
think I am, but who knows, I think everybody understands the 
concern of a great number of Americans with respect to some of 
the people on the continent who historically have been somewhat 
givers, at least to their old colonies and old areas. And I'm 
not into France bashing, but given their conduct prior to the 
war, given the way they treated our Secretary of State, 
basically sandbagging him, giving the documentation that's been 
found and the business relationships between the last 
government of Iraq, which I assume people like as little as our 
Armed Forces over there, I think all of your organizations can 
understand the concern about a lot of taxpayers in this country 
about contributing money into a pool where that country may 
have--and some others may have any voice at all with respect to 
what's going on, at least in the short-term in Iraq. Am I 
making sense?
    Mr. Welling. Yes. I guess I'd like to say--and I didn't get 
to answer Mrs. Maloney's question----
    Mr. Janklow. And I don't want you to answer in such a way 
as to jeopardize your people.
    Mr. Welling. No. I understand. We don't take any money from 
the U.S. Government, so we're certainly sensitive to our 
donor's attitudes with respect to political questions.
    I think two observations. I think one is most Americans--
and I think this is the strength of the American people--have 
the ability to disassociate political things from humanitarian 
things, and the response that we got in the wake of Iraq, both 
from individual donors and from corporate donors suggests to us 
that they have the ability to make that differentiation.
    I certainly understand the emotional dynamic that you're 
describing, that people would like some company in this boat, 
they would like some people to be contributing and they 
wouldn't be very happy about relieving some of these other 
countries' obligations of bearing their fair share. I think 
that's perfectly reasonable.
    But I do think that the American people have the ability to 
differentiate between those two things.
    Mr. Janklow. Any of the rest of you?
    Mr. Henry. Well, I would just say that I think the U.S. 
Government, you know, can choose. We can have a smaller pool of 
money that we completely control, or we can have a bigger pot 
of money into which, you know, as many governments as possible 
will be contributing.
    And, you know, that is in part the debate that will play 
out in the U.N. Security Council in the next week or two, and I 
think, you know, our perspective is, you know--you have to 
create an international framework that everyone can buy into if 
you want them to also be putting their money, you know, into 
that structure.
    So it just comes down to that simple calculus.
    Mr. Janklow. I'm not sure their money is not important at 
this point in time.
    Mr. Henry. That is a decision we have to make.
    Mr. Janklow. Right, that is a value judgment we have to 
make, but you would understand given the fact that none of you 
work for a government, you're all independent, you're true to 
your own ideals of each of your respective organizations, you 
can understand the concern of taxpayers of this country vis-a-
vis contributing to your organizations to the extent you may or 
may not be dealing with others that some consider to be at 
least in the short term if not the long term people who tried 
to get some of our soldiers killed and tried to make the 
endeavors that our country embarked on unsuccessful.
    Any of you disagree with that?
    Mr. Henry. How dare we?
    Mr. Janklow. No, no. You----
    Mr. Biddle. Well, I think we wouldn't want to put it in 
that purely bilateral context. I think what we're looking at is 
the multilateral framework that the U.N. provides and using 
that as the mechanism to move forward burden-sharing and 
cooperation and building that extra layer of legitimacy so that 
others build into the process in a way that hopefully will make 
it that much more successful which is in the U.S.'s interest. 
That I think is the bottom line.
    Mr. Janklow. If you can help me--Mr. Biddle, maybe you can 
help me with something else. I think you feel pretty strongly 
that you need to be separated from our government, our 
military. I accept that.
    Mr. Welling. Those are not the same things.
    Mr. Janklow. I'm sorry. I mean the military side of our 
government in Iraq. I apologize. That's what I meant to say, 
one.
    And two, that you've been very forceful in terms of your 
testimony that our military should be in a security role, 
because anything else they basically do, they're not going to 
be trusted or they run the risk of not being trusted of 
substantial numbers of people in Iraq. Yet at this point in 
time, at least from the television stuff that we're able to see 
at times, there's a huge amount of support when the military 
has been able to work with civilians to get the electricity 
turned on, watching the military give water to people when it's 
given out, watching the British troops distributing food. I 
haven't--sure I see the animosity and I see they're able to 
bring large crowds. It's in a particular area where no one has 
been friendly to us anyhow, so I don't think that surprises too 
many people, but my point is that is it that's unique about 
aid-giving now that's different about what we've been able to 
see over the last several weeks in terms of the enthusiasm for 
the public for the nonmilitary functions that military people 
are doing?
    Mr. Biddle. Well, I think the bottom line is--if I can get 
to the perception aspect of this, there is obviously a fear as 
to what the long-term intentions of the U.S. Government may be 
among some sector of the population.
    Mr. Janklow. But isn't that true as long as we have people 
with uniform there, no matter what their function and role is, 
whether--if they're not giving out food, they're not helping 
with medical care, they're not restoring services but they're 
patrolling the streets helping guard the citizenry, I would 
think that the public would be far more concerned about that 
than the----
    Mr. Biddle. Well, I think that's right, and I think that's 
where the conformity aspect comes into play where on an 
expertise level, obviously civilians with expertise in 
providing humanitarian assistance are best suited to do to play 
that rule and the military is best suited to provide security 
so that those actors can go about doing their job.
    And, in fact, I've seen on television certain members of 
the military saying, you know, let's go back to our primary 
mission which is to fight wars and provide a secure 
environment, so I think there is an understanding. As conflicts 
and as you get into a secure enough environment for civilian 
agencies or private contractors or companies that are obviously 
going to be going into Iraq, there is a role for the military 
in that transitional phase and obviously they're doing an 
outstanding job at that--those tasks at that time. But I think 
as you go further down the line, you want to actually have 
specialization in----
    Mr. Janklow. I agree. I don't think we have a huge level of 
disagreement on that.
    Mr. Welling. I think I may have a slightly different view 
about this in the following respects. I don't think anyone is 
saying--we're not saying that it's outside the scope of the 
American government's resources to accomplish this objective. I 
think what we're saying is that there are important policy 
issues that arise in the context of assigning responsibility to 
in that each organization is going to feel deferently about and 
depending on how you come down on those issues, you may have 
diminished expert capacity. But what we're saying is from the 
perspective of the American people, what's the most efficient 
way to accomplish these objectives and what's going to be the 
smart way for the U.S. Government to do it from a longer-term 
policy standpoint. If we were so convinced that we could do 
this effectively and we were prepared to take the 
accountability and be judged based on the results, that's 
clearly our prerogative. I think the question is being raised 
whether that's both the smart thing to do and the cost-
efficient thing to do.
    Mr. Biddle. There's of the aspect to this which was raised 
to your question Congressman Shays about getting to know each 
other and there are force protection guidelines that the 
military has to adhere to. And unless those are changed, it's 
difficult for the military to go out and do some of the things 
it needs to do at the local community to be able to interface, 
get to know what's going on and to do their job, especially 
obviously they're armed and they have a different role 
traditionally in the eyes of a civilian population. And for 
that reason, it seems appropriate, as my colleague has just 
said, to allow those different actors to play their separate 
roles.
    Mr. Henry. If I could just say a couple things, first of 
all, CARE believes that if the military are the only actors in 
a position to provide life-saving humanitarian assistance to 
people, they should do it, and we congratulate them for doing 
that where they have done it in Iraq. So it isn't, you know, 
just a turf kind of thing. We're not saying the military should 
never do that. Saving lives is the most important thing, and if 
the military are the only people who can do it, then they 
should absolutely do it.
    You know, on this sort of burden-sharing issue, the way I 
look at it as a taxpayer myself is we the American taxpayers 
can either pick up the whole tab for what is going to be a very 
expensive banquet in Iraq in the coming years, or we can go 
Dutch with the rest of the international community. And I would 
rather go Dutch. And the way to do that is to bring everyone in 
to a framework that makes them feel a sense of--a part 
ownership of that process.
    Mr. Janklow. I'd just far rather go Dutch than French.
    Mr. Shays. Mrs. Maloney has a few questions. I'll have a 
few. We will get you out of here. Your problem, gentlemen, is 
that you're too interesting and too informative. That is the 
problem.
    Mrs. Maloney. I have constituents and organizations calling 
me that want to contribute and want to be part of this effort 
to help Iraq.
    During 9-11, we had a command central that would pool--you 
could go to with your resources and they would tell you where 
to go, or they'd tell you what resources they needed. Where can 
I direct constituents and organizations that are calling me 
saying they want to be part of this great effort to help Iraq? 
Where do they go? Where do we direct them?
    Mr. Biddle. I would say to each of these organizations, Web 
sites--you can get online. You can find out how to volunteer. 
There's a wealth of information available.
    Mrs. Maloney. But I think they want to be plugged in, I 
think into the whole U.S. effort and not particularly an 
organization, an who's coordinating it? USAID? Would you direct 
them to USAID? I don't know.
    Anyway----
    Mr. Henry. Most of our organizations are--not all our 
members have interaction, which is the biggest umbrella of 
international agencies and they have a list of all the member 
agencies doing work in Iraq, and you can get to their Web site 
and from their Web site to ours.
    Mrs. Maloney. That's helpful.
    One of the most troubling things that you've said to me is 
that there is nowhere to call for security, and if you don't 
have security, you don't really have a society, because society 
cannot function if people are afraid to walk out of their homes 
to buy food or go to school. And we have to restore security 
before we can really provide adequate health care or aid to our 
children or food or whatever. So what is your idea of how we 
should do that? Should we--we have to--what is your idea of 
how--should we bring in an international force? Should it be 
the U.S. military? Should it be a funded Iraqi group? How do we 
make this happen?
    Mr. Biddle. Well, that--under the Geneva conventions, 
that's the responsibility of the occupying power to find out 
and determine the best ways to do that. There are obviously--
there are various options that might be available to them, 
internationalizing the peacekeeping efforts to increase the 
number of forces on the ground or bring in more coalition 
forces. International constabulary force to support police 
training and expand the level of security across the country, 
changing the force protection guidelines of the coalition 
forces to be able to do more creative things on a security 
measure. We're not experts on this. These are just ideas and 
things that we've seen in other settings around the world, but 
the bottom line is that it is the responsibility of the 
occupying power to develop approaches to meet this need, and I 
do think it permeates all the aspects that we've described of 
our work in the field.
    Particularly there was a report in the New York Times today 
that one of the issues in addressing cholera right now is the 
fact that the health system is so affected by the security 
environment, that hospitals are underequipped, staff are scared 
to go into the hospitals, that they've had to send the cholera 
tests up to Kuwait to have them checked.
    So it's not just a question of the sewage and the 
electricity and the mechanized aspects of addressing this in an 
urban environment. It's also the fact that you can't even 
address the specific health intervention for a given case 
because of the environment in the country right now. And 
granted, there have been challenges in the case of cholera in 
the country over the last 12 years, but usually the health 
system was trying to identify cases and respond to it quickly. 
So preventing a cholera outbreak is going to be that much more 
difficult because of that.
    Mrs. Maloney. In conclusion, I'm concerned very much about 
the economic burden to America. We have many problems here at 
home in our own schools and our own health care delivery 
system, and I agree with Mr. Henry that we should go Dutch, 
that we should get as much help as we can. And one obvious 
place is the frozen Iraqi assets. I believe $1.7 billion in our 
own country, and there are probably assets from the Saddam 
Hussein Government in many countries around the world. And one 
approach would be to freeze that money and return it to the 
Iraqi people in terms of hospitals, teachers, schools, 
sanitation and clean water systems. And I wondered what your 
comments would be on that.
    Mr. Henry. Well, by all means what we have to remember is 
that Iraq not only has some assets that can be seized, they 
have massive debts, and that is probably the biggest financial 
problem that's going to have to be sorted out in the years to 
come, is how can we pay for the reconstruction of Iraq while, 
you know, also allowing Iraq to overcome its huge debt burden.
    Mrs. Maloney. Thank you. Any other comments on freezing 
Iraqi assets in foreign countries?
    Mr. Shays. Let me just finish up here real quick. I'm not 
asking for you to comment if you don't have a particular 
reaction, but I want you to react to anything General Garner 
said or Mr. Greene or Mr. Garvelink said. You've sat here all 
day long since 2 p.m., plus, and was there anything that 
General Garner said that you want to put on the record either 
reacting positively or negatively to what Mr. Greene or Mr. 
Garvelink said, any of you? Yes.
    Mr. Von Bernuth. Just for starters, I was a little bit 
surprised when General Garner said there was no humanitarian 
crisis in Iraq, and he then went on to describe the conditions 
that he had just observed in Basra of sewage flowing through 
the streets, hospitals that weren't functioning very well, etc. 
I think there was a preexisting humanitarian crisis in Iraq 
before the war happened, and I think that crisis in some areas 
has only been exacerbated as the health systems, etc. have been 
looted and savaged and what have you.
    So I would take issue with that statement.
    Mr. Shays. OK. Any other comment that any of them said that 
you would like to speak about?
    Mr. Henry. Well, as I've already noted, I think Mr. 
Garvelink's suggestion that things aren't so bad in the health 
care system, I just don't accept as being an accurate statement 
of the current situation in Iraq.
    Mr. Biddle. And I would just say that General Garner's 
timeline might be a bit optimistic on the number and variety of 
issues need to be addressed during that short a period.
    Mr. Welling. I'm just going to add that I think that the 
point that you made earlier is, if you have someone in your 
office who you want to be responsible for something so you can 
go to one place and give credit if it succeeds or one place to 
understand why it doesn't if it didn't, was manifest in some of 
the discussion that we had here today with people being 
responsible for different parts of the puzzle and not 
necessarily being able to address questions, that if you had 
someone who had primary responsibility as the central point of 
control here, some of the questions that were presented would 
have been answered.
    Mr. Shays. I don't want this last question to take 5 
minutes to answer, but I would like someone to define success 
and then tell me if we are going to succeed. Mr. Biddle, your 
mouth started to move first.
    Mr. Biddle. I mean, I'll take it in the short-term. I think 
one of the reasons all of us have focused on the security issue 
is we're worried about losing the hearts and minds of the Iraqi 
people. They've lived under 12--or 25 years of a brutal 
dictatorship. They suffered through a number of wars, 
repression of minorities and dissident. They've had a very 
challenging time, and the opportunity now to create a better 
society obviously through the removal of Saddam Hussein means 
that you need to touch people at their very core existence, 
which means being able to help them achieve some of their 
particular needs in the near-term.
    So health care, education for children, a secure 
environment to live in and obviously the transition to a 
governing process at the local and provincial and national 
level.
    But in the near-term, I think that really means the law and 
order, secure environment and then beginning to address these 
critical services, health, water, education and, of course, the 
food issue could become a challenging one in the near-term as 
well, and making sure that the Oil for Food Program 
distribution process is successful in meeting the needs of the 
population in the near-term. I would say that's going to 
determine the success over the next 6 months or so.
    So security on the one hand and basic human needs as you 
move to a larger reconstruction, transitional governance, 
larger issues that will obviously take some time. But I think 
those two aspects--and they go hand in hand together.
    Mr. Shays. Anybody else want to make a comment? Yes?
    Mr. Von Bernuth. I go back to your observations of your 
visit to Iraq not very long ago and what it meant to see it as 
opposed to read about it, and I think for me success is going 
to be when I visit Iraq and see kids going to school in the 
morning, see women being able to go out to market, see people 
milling about the streets in a casual way in the evenings, see 
storefronts opening up and be able to travel from town to town 
without going in a convoy. That's going to be success.
    Mr. Shays. I saw you, Mr. Biddle, nod your head as well.
    Mr. Biddle. It was more eloquently put in terms of the 
image he created. So I laud him for that.
    Mr. Shays. But you started it. And so you gave him time to 
think.
    Mr. Welling.
    Mr. Welling. It's a very important thing, to have time to 
think, yes. I think that success will be defined both for the 
Iraqi people in terms of quality of life which is better than 
the quality of life that they had prior to the war, so that not 
only do we need to meet the standard of what existed there 
before, but obviously our aspiration is to do something 
substantially better than that, and I personally think there's 
no question that we'll succeed, because I think that the--I 
think the American people have been engaged in this and 
understand that not only is it a great opportunity, but it's 
part of our obligation in undertaking this in the first 
instance.
    Mr. Shays. Should we end on that positive note? You all 
have been a wonderful panel. Mr. Henry, you wanted to say 
something.
    Mr. Henry. No. I just wanted to say that we will know that 
we've achieved success when the majority of the Iraqi people 
say that their lives are better than they were before, not just 
before the war but before this long nightmare that they've been 
living through.
    Mr. Shays. Right. And do you think we are going to succeed?
    Mr. Henry. I think we can succeed if we're prepared to 
commit the resources and stay the course.
    Mr. Shays. And based on what you've said we have done in 
Afghanistan, that would not be a positive model for us.
    Mr. Henry. We think more would need to be done.
    Mr. Shays. OK. I think all of you are a credit to your 
organization, and I think very highly of each of your 
organizations, in part by the presentation that you all have 
made today, and I thank you very much for participating in this 
very--I think very educational and helpful hearing. Thank you 
so much. And with that, the record will remain open for 2 weeks 
to provide information about documents, and with that we will 
adjourn this hearing. Thank you.
    [Whereupon, at 6:04 p.m., the subcommittee was adjourned.]


</pre></body></html>
